<html>
<title> - THE MISSOURI RIVER FLOOD: AN ASSESSMENT OF THE RIVER MANAGEMENT IN 2011 AND OPERATIONAL PLANS FOR THE FUTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                THE MISSOURI RIVER FLOOD: AN ASSESSMENT
                  OF THE RIVER MANAGEMENT IN 2011 AND
                    OPERATIONAL PLANS FOR THE FUTURE

=======================================================================

                                (112-62)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-415 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)






            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY
                               Panel One

Hon. Tom Latham, a Representative in Congress from the State of 
  Iowa...........................................................    29
Hon. Rick Berg, a Representative in Congress from the State of 
  North Dakota...................................................    29
Hon. Steve King, a Representative in Congress from the State of 
  Iowa...........................................................    29
Hon. Lynn Jenkins, a Representative in Congress from the State of 
  Kansas.........................................................    29
Hon. Vicky Hartzler, a Representative in Congress from the State 
  of Missouri....................................................    29
Hon. Kristi L. Noem, a Representative in Congress from the State 
  of South Dakota................................................    29
Hon. Emanuel Cleaver, a Representative in Congress from the State 
  of Missouri....................................................    29
Hon. Blaine Luetkemeyer, a Representative in Congress from the 
  State of Missouri..............................................    29
Hon. Jeff Fortenberry, a Representative in Congress from the 
  State of Nebraska..............................................    29
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska.......................................................    29

                               Panel Two

Brigadier General John R. McMahon, Commander, Northwestern 
  Division, United States Army Corps of Engineers................    83
Kathy J. Kunkel, County Clerk, Holt County, Missouri.............    83
Tom Waters, Chairman, Missouri Levee and Drainage District 
  Association....................................................    83
Brad Lawrence, Director of Public Works, City of Fort Pierre, 
  South Dakota...................................................    83
Richard Oswald, Fifth-generation Missouri Family Farmer, and 
  President, Missouri Farmers Union..............................    83

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. W. Todd Akin, of Missouri...................................   117
Hon. Leonard L. Boswell, of Iowa.................................   118
Hon. Russ Carnahan, of Missouri..................................   120
Hon. Eddie Bernice Johnson, of Texas.............................   125

               PREPARED STATEMENTS SUBMITTED BY WITNESSES
                               Panel One

Hon. Tom Latham..................................................   126
Hon. Rick Berg...................................................   130
Hon. Steve King..................................................   133
Hon. Lynn Jenkins \1\............................................
Hon. Vicky Hartzler \1\..........................................
Hon. Kristi L. Noem..............................................   137
Hon. Emanuel Cleaver.............................................   141
Hon. Blaine Luetkemeyer..........................................   145
Hon. Jeff Fortenberry \1\........................................
Hon. Lee Terry...................................................   148

                               Panel Two

Brigadier General John R. McMahon................................   150
Kathy J. Kunkel..................................................   162
Tom Waters.......................................................   168
Brad Lawrence....................................................   178
Richard Oswald...................................................   182

                       SUBMISSIONS FOR THE RECORD

Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, request to submit the following for the record:

        Blake Hurst, President, Missouri Farm Bureau Federation, 
          letter to Hon. Bob Gibbs, November 29, 2011............     4
        American Society of Civil Engineers, written statement...     5
        Andrew Fahlund, Senior Vice President for Conservation, 
          American Rivers, letter to Hon. Bob Gibbs and Hon. 
          Timothy H. Bishop, November 29, 2011...................    10
Hon. Russ Carnahan, a Representative in Congress from the State 
  of Missouri, request to submit the following for the record:

        Dr. Andrea A. Hunter, Director of the Osage Nation 
          Historic Preservation Office, written statement........    16
        Daniel Overbey, Executive Director, Southeast Missouri 
          Regional Port Authority, ``Flood Damage to the Ports 
          Located on the Mississippi River,'' written statement..    23
        Rowan W. Gould, Deputy Director, United States Department 
          of the Interior, Fish and Wildlife Service, letter to 
          Hon. Timothy H. Bishop, a Representative in Congress 
          from the State of New York, November 29, 2011..........    75
        Melissa Samet, Senior Water Resources Counsel, National 
          Wildlife Federation, written statement.................    77
Hon. Tom Latham, a Representative in Congress from the State of 
  Iowa, request to submit ``State of Iowa Input: Missouri River 
  Management and Flood Recovery Efforts,'' sent to the Committee 
  on Transportation and Infrastructure from Brigadier General J. 
  Derek Hill, Chair, Iowa Missouri River Recovery Coordination 
  Task Force.....................................................    30
Hon. Rick Berg, a Representative in Congress from the State of 
  North Dakota, request to submit the following for the record:

        ``BNSF Fights the Rising Tide, Begins to Restore Network 
          Momentum,'' Railway, The Employee Magazine of Team 
          BNSF, Summer 2011......................................    42
        Hon. Jack Dalrymple, Governor of North Dakota, written 
          testimony for the U.S. Army Corps of Engineers public 
          scoping meeting on the Missouri River Annual Operating 
          Plan, November 1, 2011.................................    46
Hon. Kristi L. Noem, a Representative in Congress from the State 
  of South Dakota, request to submit the following for the 
  record:

        Hon. Laurie R. Gill, Mayor of Pierre, South Dakota, 
          written testimony......................................    56
        Jeff Dooley, Manager, Dakota Dunes Community Improvement 
          District, South Dakota, written testimony..............    64
        Kim Blaeser, Homeowner and Treasurer, Riv-r-Land 
          Homeowners Association, South Dakota, written testimony    66
Hon. Emanuel Cleaver, a Representative in Congress from the State 
  of Missouri, photographs of the KCP&L plant before and after 
  the Missouri River flood.......................................   191
Brad Lawrence, Director of Public Works, City of Fort Pierre, 
  South Dakota, ``The Missouri River Flood of 2011,'' narrative..   193

                        ADDITIONS TO THE RECORD

Hon. Jim Suttle, Mayor of Omaha, Nebraska, written statement.....   211

----------
\1\ Representatives Jenkins, Hartzler, and Fortenberry did not 
  submit written statements.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
                      THE MISSOURI RIVER FLOOD: AN
                   ASSESSMENT OF THE RIVER MANAGEMENT
                     IN 2011 AND OPERATIONAL PLANS
                             FOR THE FUTURE

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2011

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:06 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The subcommittee hearing of Water Resources and 
Environment will come to order. Thank you for being here today. 
I will start with my opening statement, and we will move on to 
the ranking majority's opening statement.
    This hearing is for the Missouri River flood. It is an 
assessment of river management in 2011 and operational plans 
for the future. I would like to welcome everyone today in 
hearing the Missouri River flood and assessment, as I just 
said, and the operational plans for the future.
    At the dedication ceremony of the Oahe Dam in South Dakota 
in 1962, President Kennedy made the following statement: ``We 
take for granted these miracles of engineering. And too often 
we see no connection between this dam right here and our 
Nation's security and our leadership all around the world. The 
facts of the matter are that this dam and many more like it are 
essential to the expansion and growth of the American economy 
as a measure that Congress is now considering. And this dam and 
others like it are essential to our national strength and 
security, as any military alliance or missile complex.''
    I believe President Kennedy and his generation understood 
that public infrastructure is important to our economy, and a 
strong economy is vital to our national security. As we go 
through these difficult economic times, we must not forget that 
some Federal investments are valuable.
    I would like to remind members of the subcommittee and 
those in the audience that in November 2011 we marked the 25th 
anniversary of the 1986 Water Resources Development Act. This 
landmark law has provided the Nation with a new paradigm for 
the development of water resource projects. WRDA 86 required 
that most projects be planned and constructed with a non-
Federal partner that would share in the cost. With local public 
entities taking a bigger role in projects, we have been able to 
leverage the Federal dollars and build projects that better fit 
the local needs.
    In spite of the fact that non-Federal partners now are 
paying a significant portion of the project cost, we have not 
taken steps to recapitalize the water resources infrastructure 
that previous generations have entrusted to us. Investing some 
of our limited Federal dollars in flood protection and 
navigation infrastructure not only provides jobs during the 
construction period, but also provides economic benefits that 
save more jobs once the project is completed.
    One needs only to look at the national, regional, and local 
economic benefits that have flowed from the water resources 
project on the Missouri River to appreciate the value of the 
Corps projects. Given the significant economic benefits that 
come from investing in flood protection and navigation 
infrastructure, I believe the Federal Government should focus 
its Corps of Engineers dollars on those activities and halt, 
for a while, investing in environmental restoration projects 
that do not provide the long-term jobs we so desperately need 
right now.
    This concern has been made even acute by the fact that the 
damages to levees and other flood protection infrastructure 
caused by the Missouri River flood, Hurricane Irene, and other 
disasters this year must be quickly repaired to prevent damages 
next year. And currently, the Corps has to pay for these 
repairs by taking money from other projects. The Corps should 
not have to be deciding which projects to rob to pay for levee 
repairs. We in Congress and the President have to do a better 
job of getting the Corps the money they need for these 
important life and property-saving projects.
    The Missouri River Basin is the world's third largest 
watershed, and drains 41 percent of the United States. There 
are six main stem reservoirs, many miles of levees, and other 
control structures that the Corps of Engineers uses to manage 
the river for eight separate--and many times competing--
purposes. In managing the Missouri River system, the Corps has 
to balance its operations to address the needs of flood 
protection, navigation, municipal water supply, irrigation, 
fish and wildlife, recreation, and hydropower. The Corps has a 
master manual to guide its decisions, and they develop annual 
operational plans that reflect expected runoff for the season.
    Since records were kept beginning in 1887, the estimated 
2011 runoff of 61 million acre feet into the system easily 
exceeded the previous record of approximately 49 million acre 
feet set in 1997. Unprecedented runoff occurred in the basin in 
the months of May, June, and July of this year. The combined 
runoff from these 3 months of 34.3 million acre feet is higher 
than the total annual runoff in 102 of 113 years in the period 
of record.
    The floods of 2011 damaged critical transportation 
infrastructure like roads, highways, bridges, airports, and 
rail lines. For instance, logistical problems caused by 2011 
floods caused a Class I railroad, Burlington Northern Southern 
Santa Fe, to re-route up to 460 trains per day for the duration 
of the floods. Worse still, thousands of Americans were 
flooded, some of them who lost their homes. Millions have been 
impacted by these floods and, sadly, some have lost their 
lives.
    The system that was authorized in 1944 and completed in the 
early 1960s has provided flood control and other important 
benefits for many in the Missouri River Basin. Still, the 
system has not created a flood-free zone along the Missouri 
River. We have seen in the Gulf region what can happen when 
hurricane and flood protection infrastructure is inadequate or 
fails to perform. And now we have seen this type of event in 
the Missouri River, the Mississippi River, and the Ohio River.
    I believe the answers to these issues will come from a 
partnership between Federal and non-Federal public entities. I 
believe we should recapitalize the Nation's flood damage 
reduction infrastructure, and believe we need to make policy 
changes to be sure that we are making the best investment of 
taxpayer dollars.
    At the same time, I believe local governments have got to 
make wise land use decisions in their communities that will 
keep homes and businesses out of harm's way.
    I would like to thank the panel members for being here 
today and we examine the flood of 2011 and how the Corps is 
preparing for the future.
    At this time, I would also ask unanimous consent that the 
documents are put in the record from the Missouri Farm Bureau 
Federation, the American Society of Civil Engineers, American 
Rivers, the Honorable Lee Terry.
    [No response.]
    Mr. Gibbs. Hearing no objection, that will be so ordered.
    [Hon. Lee Terry's statement is featured with the other 
witnesses' statements--please refer to the ``Prepared 
Statements Submitted by Witnesses'' section of the table of 
contents. The other information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Gibbs. Also, I would like unanimous consent that 
committee members Sam Graves, Bill Long, and Leonard Boswell, 
who are not on the subcommittee but are on the T&I Committee, 
be allowed to sit and ask questions during this hearing.
    [No response.]
    Mr. Gibbs. Hearing no objections, so ordered.
    At this time I welcome Mr. Carnahan as the ranking member 
for this hearing.
    Mr. Carnahan. Thank you, Mr. Chairman. And I want to 
acknowledge our ranking member, Mr. Bishop--sitting in for him 
briefly today--for holding this hearing. This is an issue that 
has been of critical importance to my constituents in the St. 
Louis region that live and work along the Mississippi River. I 
originally sent a letter to the committee requesting this 
hearing on May 5th. I am very thankful that the committee is 
convened here today to further investigate this issue.
    We also organized a briefing for colleagues on this very 
issue back in July. But it is important that the committee is 
here today, taking this formal action to investigate the 
flooding and to help plan for future events.
    I also want to thank you for inviting Richard Oswald, who 
will testify here today. He is from Atchison County, Missouri, 
in northwest Missouri. He will be able to give his personal 
account of the devastation brought on by these floods. And Mr. 
Oswald's home, the one built by his parents, has flooded for 
the third time in his life because of the failure of our levee 
and reservoir system. This year Mr. Oswald could not return to 
his farm for months. His crop was ruined. The economy of his 
1,200-person town, devastated. And his story is repeated 
countless times across the State.
    I also want to acknowledge some other Missourians that will 
be with us here on the later panel: Kathy Kunkel, the county 
clerk of Holt County, Missouri; and Tom Waters, chairman of the 
Missouri Levee and Drainage District Association. And it is 
great to have three of our colleagues from Missouri: 
Congresswoman Hartzler, Congressmen Luetkemeyer and Cleaver.
    This issue is bipartisan, it covers many States and 
regions, and it is very important, I think, we are here today 
doing this.
    I also want to ask unanimous consent to submit two other 
testimonies for the record for witnesses that could not be with 
us today. The first is the testimony of the Osage Nation. Levee 
breaches destroyed their sacred sites and spread human Native 
American remains over huge areas. And the tribulations 
experienced by the tribe help to remind us of the myriad 
effects of these floods, and the many factors that must be 
weighed when we deal with this in the future.
    I also want to submit the testimony of the Southeast 
Missouri Regional Port Authority, detailing the issues they 
faced covering these floods.
    Mr. Gibbs. And that is so ordered.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gibbs. Mr. Cravaack--oh, sorry.
    Mr. Carnahan. And just--if I may continue, Mr. Chairman--
the Mississippi and Missouri River floods in April and May this 
year were among the deadliest and most damaging recorded along 
the waterway in the past century. Two major storm systems 
deposited record levels of rainfall on the Mississippi River 
and its tributaries, was contributed with springtime snow melt, 
causing water levels to rise to unprecedented levels.
    During the past half of May, the upper Missouri River Basin 
received nearly a year's worth of rainfall. The flooding caused 
evacuations of thousands of people, swamping river towns and as 
many as 3 million acres of farmland in Mississippi, Tennessee, 
and Arkansas, alone. In May the Army Corps of Engineers blew up 
a section of the Birds Point Levee in Missouri, submerging 
about 130,000 acres of farmland to ease the flood threat to 
Kentucky and Illinois river towns. Damages from these floods 
are estimated to be at $2 billion, thus far. And many of these 
areas are still in the process of drying out.
    In St. Genevieve County, the oldest continuously operated 
ferry based on the Mississippi River established in 1798, 
essential to the lives of many, has been out of operation. 
Southern Jefferson County construction projects delayed. From 
Joplin to Tuscaloosa, our Nation has experienced its share of 
natural disasters in these past months.
    While we can't predict a tornado, we can predict floods. We 
need to reach out to local officials to offer help where we 
can, both in relief efforts but also future preventative 
measures.
    Because of time, I am going to submit the rest of my 
testimony for the record. I look forward to hearing the panel 
and the experts that have assembled here today to be sure we 
are prepared, that we plan properly, and that we revisit our 
planning, based on these recent events, to be sure that we can 
minimize this kind of devastation again. I yield back my time.
    Mr. Gibbs. Mr. Cravaack, you have an opening statement?
    Mr. Cravaack. Thank you, Chairman, but I will pass and look 
forward to the testimony of my colleagues and the visitors 
today.
    Mr. Gibbs. OK. Mr. Boswell?
    Mr. Boswell. Well, thank you very much. And I would like to 
make a statement for the record, if I could.
    Mr. Gibbs. So ordered.
    Mr. Boswell. Thank you so much. Well, first I want to thank 
you, Chairman Gibbs and Ranking Member Bishop, and today Mr. 
Carnahan, for holding this important hearing. As a Member of 
Congress representing a State bordering the Missouri River, I 
can attest to the validity of this hearing.
    Mr. Chairman, from time to time I believe circumstances 
require us all to re-evaluate plans and concepts that we 
thought were sufficient to deal with certain events. I believe 
sometimes circumstances require us to re-evaluate priorities to 
deal with changing realities. There is nothing wrong with 
acknowledging this; in fact, I believe it should be encouraged.
    However, it does seem that, on occasion, Government gets in 
the way of this acknowledgment. And when it does, the machinery 
of Government often times does not have the flexibility to 
change and adapt in a timely manner. This does not always 
happen. Yet, when it does, it can bring long-lasting impacts on 
affected communities.
    The size and scope of the Missouri River flooding that we 
witnessed this year, I believe, is an event that requires us to 
re-evaluate our priorities and adapt and alter programs and 
responses to deal with the changing realities. The length of 
time that we witnessed historic flood waters was something I 
think no one was really prepared to deal with.
    For example, temporary levees were constructed to protect 
farmland and communities. According to conversations I have had 
with people in the southwestern part of Iowa, local officials 
are being told to deconstruct those temporary levees. Why? 
Well, a little investigation. They were required to agree to 
dismantle as soon as the water receded, or they wouldn't get 
the temporary levee. And flood water was on the way.
    According to that, we do not yet know--again, we do not yet 
know--what type of winter we are going to witness now, and what 
type of runoff we are going to have in the spring, as a result. 
So why must we spend money to deconstruct something that is 
doing nothing but protecting communities when we do not know 
yet whether or not we are going to have to spend money on 
rebuilding it in a few months? Or next spring?
    Is the answer because it is not in a master plan, that 
recent events are proven to be outdated? That simply makes no 
sense to me. But it is those types of actions that drive up 
costs and, frankly, drives up the blood pressure of local 
citizens who have to deal with these changing realities.
    Furthermore, the scope of flooding events across the 
country should call into question spending priorities on how we 
can better focus national resources when it comes to flood 
protection, conservation, recreation, and so on. Personally, I 
do believe in conservation. However, we must not sacrifice 
flood protection and the protection of lives and property for 
the sake of conservation. If we do, there will simply be 
nothing left to conserve, as the flood waters wash away natural 
habitats and communities in their path.
    If there should be tough budgetary decision--and at this 
time I believe we all agree that there must be--then we must 
prioritize flood protection and mitigation above others. 
However, over the last decade or so funding levels of flood 
protection in the Missouri River States have steadily declined, 
where funding levels for environmental works have steadily 
increased. This is not to say that there is not a time and 
place for environmental work, for there are. But we, our 
leaders, simply--we, as leaders, simply cannot sacrifice entire 
communities by continually short-changing flood protection.
    So it is my sincere hope that this hearing will provide the 
committee with the information needed to make an informed 
decision on how best to move forward. And once again, I thank 
the chairman and ranking member for calling this hearing to 
order. Appreciate your effort. Thank you very much.
    Mr. Gibbs. OK. We have two more opening statements. Mr. 
Duncan?
    Mr. Duncan. Well, thank you very much, Mr. Chairman. This 
is a very important hearing. The river covers 2,600 miles. 
Certainly it is not--I am not as directly affected as most of 
the Members here, but I am concerned about this.
    I am particularly concerned about the testimony of two 
later witnesses, Tom Waters of the Missouri Levee and Drainage 
District Association, who has a section of his testimony 
entitled, ``The Corps is Not Listening,'' and the testimony--a 
similar testimony from another witness, Brad Lawrence, the 
public works director of Fort Pierre, South Dakota, in which 
they basically describe either an arrogant or a don't-care 
attitude by the Army Corps that they are going to do whatever 
they want to do, regardless of how the people feel.
    And then I also noted the testimony of Kathy Kunkel, the 
county clerk of Holt County, Missouri, and she talks about the 
fish and wildlife service dictatorially demanding that 160,000 
acres in her county be purchased. This--of course we have 
already heard they were talking about maybe millions of acres 
that needed to be purchased throughout these different States.
    The Federal Government already owns far too much land 
already, about 30 percent of the land of this country. And 
State and local governments own another 20 percent. And at the 
same time that the police and fire and teachers and everybody 
keeps coming to local and State governments and the Federal 
Government wanting more money, Government at all levels keeps 
taking more and more land off the tax rolls. Those things just 
are in conflict. And the sooner we realize that private 
property is not only a very important part of our freedom, but 
a vital part of our prosperity, the better off this country is 
going to be.
    And then we get into the endangered species part about the 
sturgeon. And some of this flooding may have been caused by the 
Federal Government in the first place, trying to protect the 
sturgeon.
    And I remember years ago in my home area of east Tennessee, 
we got into a battle for years over the snail darter. And the 
experts all told us that the snail darter--that that was the 
only place where you could find snail darters. And then, after 
we go through hundreds of millions of dollars and cases going 
all the way to the U.S. Supreme Court, and then the Congress 
overruling the fish and wildlife service and the Federal 
bureaucrats, they then--surprise, surprise--find that there are 
snail darters all over the place, Oregon and everyplace else.
    So, this is a very important hearing. I am sorry that I 
won't be able to stay for a lot of it. But I appreciate your 
calling this hearing, and thank you for letting me say a few 
words at this time.
    Mr. Gibbs. Mr. Graves?
    Mr. Graves. Thank you, Chairman Gibbs and Ranking Member, 
for holding this obviously very important hearing.
    Flooding on the Missouri River has become such a regular 
occurrence, it is really kind of hard to keep up with. But this 
year, 2011, was actually one for the record books. You know, we 
don't know what the full cost of this is going to end up being, 
but it is probably going to be several billion dollars. And 
that includes agriculture losses, it includes business 
interruption, infrastructure damage, individual and public 
assistance. And, tragically, we did have the loss of life as a 
result of this.
    In northwest Missouri, there are thousands of acres of 
farmland that are utterly devastated. And many of those acres 
are never going to see a crop again. Road closures have cost 
businesses revenue. That includes gas stations, restaurants, 
and retailers. And ultimately, it cost local jurisdictions a 
lot of revenue. States, counties, cities, and a lot of other 
local entities are going to continue to have to spend money 
they simply don't have for critical infrastructure repairs.
    The BNSF Railroad, which is a major economic generator in 
the Midwest and nationwide has spent literally hundreds of 
millions of dollars as a result of this year's flood. And when 
you include re-routing trains, delays, increased fuel and 
labor, the dollar amount continues to go up. The domino effect 
on small businesses that depend on the timely delivery of goods 
is enormous, and yet another headache they have to deal with 
during this time of economic uncertainty.
    It is very important that we hear from our witnesses today 
about what the devastation of this flood has caused. But it is 
just as important to hear what we think the future needs to be 
when it comes to managing the river. And I believe, personally, 
that we are asking the Corps of Engineers to juggle too many 
priorities. And I think we have to make clear, once and for 
all, that prevention of flooding has to be the number one 
priority. And we also need to strip away a lot of other less 
important priorities.
    I have introduced legislation that would make flood control 
the priority of the Corps in managing the river, and remove 
fish and wildlife as an authorized purpose. We have to get our 
spending in order. From Gavins Point Dam to the mouth of the 
Missouri River, we are slated to spend $73 million on wildlife 
reclamation and habitat creation, and we are only slated to 
spend $6 million on levee maintenance in that same stretch of 
river. I pointed this out on the floor of the House earlier 
this year. That is 12 times more money on birds and fish than 
it is on levee maintenance.
    My colleague from Iowa, Congressman Steve King, has also 
introduced legislation that will require the Corps to take into 
consideration the new data points established by this year's 
flood. And I doubt anyone contends these actions alone would 
obviously entirely mitigate the possibility of future flooding, 
but I strongly believe it is a huge step in the right 
direction.
    And the fact of the matter is when you have years like we 
have had this year, with record snow melt, there should be some 
adjustments made for the consideration of people's lives.
    And with that, Mr. Chairman, again I appreciate the 
opportunity to be here, and I look forward to hearing from all 
of our witnesses on their testimony.
    Mr. Gibbs. OK. Today we have two panels. Our first panel is 
Members of Congress, and our second panel is the Corps and some 
other stakeholder people involved in this policy of how we 
regulate the Missouri River.
    But first of all, our first panelists, we are doing this by 
the order you came in, so we are trying to be fair. And the 
plan is not to ask Members of Congress questions, so we can get 
on to the second panel. So this will be just making your 
testimony.
    And, as the first Member, I welcome Mr. Latham.

TESTIMONY OF HON. TOM LATHAM, A REPRESENTATIVE IN CONGRESS FROM 
THE STATE OF IOWA; HON. RICK BERG, A REPRESENTATIVE IN CONGRESS 
      FROM THE STATE OF NORTH DAKOTA; HON. STEVE KING, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF IOWA; HON. LYNN 
JENKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF KANSAS; 
  HON. VICKY HARTZLER, A REPRESENTATIVE IN CONGRESS FROM THE 
  STATE OF MISSOURI; HON. KRISTI L. NOEM, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF SOUTH DAKOTA; HON. EMANUEL CLEAVER, 
 A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MISSOURI; HON. 
BLAINE LUETKEMEYER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MISSOURI; HON. JEFF FORTENBERRY, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF NEBRASKA; AND HON. LEE TERRY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Latham. I thank the chairman and the ranking member of 
the subcommittee for having this hearing. I'd like to ask 
unanimous consent to have placed in record comments of General 
Derek Hill, the chairman of Governor Branstad's Iowa Missouri 
River Recovery Coordination Task Force.
    Mr. Gibbs. So ordered.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Latham. Thank you. Just a couple points. I have got an 
appropriations meeting going on right now, for which--I am 
going to have to leave, but I think it is important to note 
that, even with all the devastation brought by this flood, to 
the citizens, the towns, the communities, farms and businesses, 
and all the attendant economic costs, we still don't know the 
full extent of damage, because there are areas we still can't 
get in to evaluate.
    As is the case with other States, the two major priorities 
in Iowa are the restoration of flood control facilities and 
increased prioritization of flood control and the management of 
the Missouri River. In short, the residents must be protected, 
which means we have to focus on repairing the flood control 
infrastructure like levees, and getting those levees back to 
pre-disaster conditions.
    The levee damage is not just from the breaches. The entire 
levee infrastructure is weakened and eroded. And the state of 
affairs--this must be addressed now, before spring.
    As to the river management, the Corps has made some 
encouraging comments about flexibility. But I think we need 
more than promising comments about the management of the river 
flow. We need to take active steps ahead of the next flood 
season.
    Just one more point on the Iowa transportation roadways. 
Close to 250 miles of roads were impacted. In my State, the 
Iowa DOT staff has done an absolutely great job. There is still 
an awful lot more work to be done. But I think it is important 
for this committee, Transportation and Infrastructure, to look 
at the highway emergency repair funding regime, as our 
experience in Iowa suggests that some changes really need to be 
made to the statute.
    With that, I appreciate being here very much. I will have a 
more extensive statement for the record. But thank you very 
much, Mr. Chairman.
    Mr. Gibbs. Thank you.
    Mr. Berg from North Dakota.
    Mr. Berg. Chairman Gibbs and Ranking Member Carnahan and 
the rest of the subcommittee, I want to thank you for allowing 
us to speak today regarding the management of the Missouri 
River, and also the operational plans for the future.
    Today's hearing is focused on the 2011 flood events along 
the Missouri River. As you know, North Dakota was devastated by 
this year's unprecedented flooding throughout the State. The 
damage is significant, with thousands of homes damaged, tens of 
thousands of North Dakotans displaced, hundreds of thousands of 
acres of farmland flooded, and severe damage to infrastructure.
    I firmly believe that flooding along the Missouri River was 
both natural and manmade. North Dakotans are frustrated with 
the experience they had this past year, and rightly concerned 
about the potential for 2012 flooding. Many questions still 
need to be answered regarding what went wrong and what actions 
should be taken to prevent a similar flood in the future.
    Specifically, questions have been raised about the 
management of the reservoir system by the U.S. Army Corps of 
Engineers. We need to know more about the information that the 
Corps used in its decisionmaking process. It has been noted by 
the subcommittee inundation maps used by the Corps and other 
Federal agencies were inadequate and non-existent. In some 
cases, the only tools available were 100-year flood plain maps. 
Many were inaccurate.
    Further, the Corps needs to better explain the timing of 
the decisions, and why they were made when they were made. 
Those decisions led to tremendous devastation. And the 
residents of all our States deserve answers.
    I look forward to hearing from those responsible, and what 
the plan is to ensure that similar flooding does not occur in 
the future.
    Regardless, we can't look ahead to a long-term management 
solution while we are still fighting flooding next year. I have 
and will continue to urge the Corps to first focus on the 
immediate planning for the 2012 flood season before 
implementing a long-term strategy. Specifically, the Corps 
needs to address what actions are prudent for them to take next 
year to prevent a repeat of the disaster for 2012.
    I fear the Corps has been operating under an assumption 
that this year's flood was a singular historic event. I think 
this is naive and short-sighted. Currently the National Weather 
Service is forecasting a La Nina climate pattern for this 
winter, with long-term outlooks predicting a fourth consecutive 
year with in-flows above normal into the Missouri River system. 
The Corps must take into account both current wet conditions in 
the upper basin and forecasts in their operating plan and 
management decisions.
    Recently, Governor Dalrymple and the North Dakota State 
Water Commission asked the Corps to lower Lake Sakakawea, our 
major reservoir, by 2\1/2\ feet to provide more storage 
capacity and additional flood protection for this upcoming 
spring. The Corps dismissed this request, a decision I strongly 
opposed. I am cautiously optimistic about the Corps' recent 
announcement that they will take a more flexible approach to 
managing the river system, and will be more aggressive in 
managing water releases during the winter and spring. And I 
appreciate the Corps' stated commitment to provide more 
frequent communications with the State, local, and county 
officials.
    But as we await this final version of the Corps' annual 
operating plan this December, I believe it is in the best 
interest of the Corps to support a cautionary approach to the 
management of the Missouri River system. Going forward, the 
Corps must consider flood protection above all else in managing 
the Missouri River system. We are aware of the congressionally 
authorized purposes associated with the Missouri River system, 
purposes such as recreation, hydropower, irrigation, fishing, 
wildlife, water supply, and water quality. All remain 
important. However, all of those purposes are secondary to the 
need for dependable flood control.
    The clear consensus from seven out of eight States that 
were affected by the 2011 flooding event is that flood control 
must be the highest priority. I will continue to pressure the 
Corps to make flood protection the top priority in managing the 
river system. I will demand greater transparency in 
forecasting, and more meaningful public meetings regarding its 
management.
    I would ask to submit my entire statement for the record, 
and I would like to submit a more detailed article about the 
infrastructure damage experienced by the BNSF Railway. And 
also, I would ask that testimony by our Governor, Jack 
Dalrymple, on November 1st also be submitted for the record.
    Mr. Gibbs. So ordered.
    [Hon. Rick Berg's statement is featured with the other 
witnesses' statements--please refer to the ``Prepared 
Statements Submitted by Witnesses'' section of the table of 
contents. The other information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Berg. Again, I thank the chairman and ranking member 
and committee for granting our request for this hearing, and 
assisting our bipartisan effort to gain answers from the Corps 
and work towards long-term flood protection.
    Mr. Gibbs. Yes, that is so ordered, the record, your 
testimony written and the Governor's testimony.
    Mr. Berg. Thank you.
    Mr. Gibbs. Thank you.
    Mr. King from Iowa. Welcome.
    Mr. King. Thank you, Mr. Chairman and Ranking Member 
Carnahan. I appreciate this hearing today, and I appreciate the 
testimony of the other Members so far. And I completely agree 
with what I heard the gentleman from North Dakota testify just 
ahead of us, and along with the rest of the testimony that I 
have heard.
    I certainly support Congressman Graves's bill that sets 
some priorities. And I have introduced a piece of legislation, 
H.R. 2942, that does not change the order of those priorities 
but does require the Corps of Engineers to recalculate the 
storage space to protect us from serious downstream flooding.
    And I will just touch some of the bases along the way on 
the scope of this damage. Your opening statement covered most 
of it, Mr. Chairman. And it is this, that the greatest amount 
of runoff we had ever experienced, in nearly 61 million acre 
feet, the discharge at Gavins Point Dam is a key component of 
this. That is the last valve going into the Missouri River out 
of the six dams.
    The highest discharge we had ever experienced in the past 
was 70,000 cubic feet per second. We found by midsummer--or I 
will say by June, about June 14th or 15th--it was kicked up to 
160,000, more than twice as much discharge as we had ever seen. 
That brought about water in the Missouri River bottom that, by 
the time you get to Sioux City, it is--they had--they saw 
flooding in Sioux City, just downstream from Sioux City--the 
river was typically about 1\1/2\ miles wide, and that is 
narrow. A few miles south of there, at Blencoe, 8 miles wide. 
By the time you got to I-680 north of Omaha, where I cut across 
the river to go to the airport from the Iowa side, the water 
was 11 miles wide.
    And it came back together through the levees and through 
Omaha and Council Bluffs, where we had 30,000 people in Council 
Bluffs living below the water line in the river for 3\1/2\ or 4 
months, while the water table was at the level it was. And only 
the levee protected them from becoming another New Orleans, and 
it had some leaks and some seepages. But downstream from there 
in Glenwood and south, then the river became 4, 5, and 6 miles 
wide on down into Missouri, on through Sam Graves's district.
    That water wasn't just standing there, as people envision, 
a normal flood. This water was running 10 to 11 miles an hour 
in the channel and where it was spread out 11 miles wide it was 
still 4 to 5 miles an hour, out against the base of the hills. 
And so what you saw was hundreds of thousands of acres covered 
by sand that now today, when the water has gone down, it looks 
like Iraq.
    And the loss in crop damage that--just a back of the 
envelope calculation--that we lost in Iowa and Missouri, not 
counting Nebraska and Kansas and the Dakotas, but just Iowa and 
Missouri, the equivalent feed value lost is more than half of 
the wheat crop in Montana, for example. I use Montana, because 
we would like to have them join all the other States affected 
in wanting to control this discharge to prevent serious 
downstream flooding.
    The Corps of Engineers, in response to much of our pressure 
that has come, has said initially, ``Well, this is--we are not 
going to change the management of the river. We think this is a 
500-year event.'' I want to emphasize that we have a 150 years 
of records, and they are declaring a 500-year event. If you had 
10,000 years of records and it happened a couple of times a 
millennia, you might be able to say this is a 500-year event. 
No mortal can tell you it is a 500-year event. Lord knows why I 
have had to live through so many 500-year weather events in my 
short time here on this earth.
    And so that is, I think, an arrogant position on the part 
of the Corps. And to declare that they are going to manage this 
river--the first slide that they put up is ``Congressionally 
Authorized.'' And then they decide that they are going to 
manage the river without the direction of Congress.
    I think we have to tell them--even though they have changed 
their position now to a third position--first one was, ``We are 
not going to change the management because it is a 500-year 
event;'' second one is, ``Well, we might because we have heard 
enough from you that we want to at least pacify those objectors 
that are there;'' third one is, ``Now we think we will lower 
the levels a little more next year,'' but they don't want to do 
something permanent. We have to tell them. If we don't tell 
them, they will slide back to being run by the environmental 
interests, as opposed to the first priority, which I have heard 
stated multiple times here: Protect us from the flooding from 
serious downstream.
    And additionally to that--and my bill, H.R. 2942 has the 
support of most of the Members--it is bipartisan--most of the 
Members affected by this. And I would think the others may want 
to take a good look at it again. But it is a very simple bill 
that does two things. It tells the Corps of Engineers that, 
``You shall recalculate your storage space to protect us from 
the greatest runoff ever.'' That is now 2011 instead of 1881.
    I would pose that if we had the runoff in 1881 that we had 
in 2011, they would have built a Pick-Sloan program to protect 
us, and we wouldn't have had this event here in this year, 
because it would have been--the storage would have protected us 
from it.
    So, that is the first thing it tells it to do. And then it 
says, ``You shall reach those targets by March 1st,'' which is 
something that is part of their language.
    So, then, one more closing point here--and I know that my 
time has run out--we also have levees that they are not 
reconstructing back to pre-flood elevations. And that means 
that in my district--in Sam Graves's district, in particular--
they are repairing some of these blown-out levees with sand to 
the 25-year event, which means that for the last 5 years it 
would flood anyway. Our people in the river bottom then have to 
pay triple crop insurance, they can't rebuild, they can't plant 
anything, and the budgets that they could do interdepartmental 
transfers on, looking at 2002 by Corps' numbers, 13 percent of 
their budget was flood control, 13 percent was environmental. 
2012 they have 0 percent flood control, 52 percent for 
environmental. I suggest that no environmental money gets spent 
until the levees are repaired to pre-flood elevations.
    I would conclude that testimony, and thank you for your 
attention, Mr. Chairman. I yield back.
    Mr. Gibbs. Thank you. Ms. Jenkins from Kansas.
    Ms. Jenkins. Thank you, Chairman Gibbs and Ranking Member 
Carnahan for giving us this opportunity to testify on this very 
important matter today. Due to incredibly heavy snow runoff and 
spring rainfall, the reservoirs on the upper Missouri River 
Basin were filled beyond specified capacity this spring. As a 
result, on June 23rd, the United States Army Corps of Engineers 
directed the release of water at a record level of 160,000 
cubic feet per second from the Gavins Point Dam on the upper 
Missouri River. This decision by the Corps more than doubled 
the previous record release of water from Gavins Point and put 
communities, homeowners, farmers, and critical road and rail 
transportation routes in Atchison, Doniphan, and Leavenworth 
Counties in my congressional district in the path of the raging 
Missouri River.
    After touring affected communities, I am convinced that the 
Corps' management plan can and must be improved to ensure that 
everything possible is done to prevent flooding of this 
magnitude in the future. For this reason, Senator Roberts and I 
have introduced bills in the House and the Senate that will 
require the Secretary of the Army, acting through the chief of 
engineers, to take into account all hydrologic data from the 
events leading up to this year's flooding in conducting 
Missouri River Basin operations in the future.
    Such data would include rainfall, as well as snowpack from 
the mountains and the plains, and must be included in all plans 
involving the management of the Missouri River. This data 
should help limit the risk of future record flood events, and 
will allow the Corps to ensure that flood mitigation on the 
Missouri River is the top priority, without directly 
jeopardizing the river's other functions, such as navigation, 
recreation, or water and energy supply.
    In addition, it will ensure that vital lines of commerce 
along the river, including railroads which sustained hundreds 
of millions of dollars of damage during this flood season will 
not be interrupted by a similar disaster.
    I am hopeful that this hearing will help convince the Army 
Corps of Engineers to consider the lessons of this summer and 
take the necessary measures to prevent these types of floods 
from happening in the future.
    Again, thank you, Mr. Chairman, for having us. And I would 
ask that my testimony be included in the record.
    Mr. Gibbs. Thank you.
    Mrs. Hartzler from Missouri, welcome.
    Mrs. Hartzler. Thank you. Thank you, Mr. Chairman, for 
having this hearing. Thank you, Ranking Member Carnahan, my 
other Missouri colleagues, for your leadership on this issue, 
as well.
    There is about 180 miles of the Missouri River that flows 
through the Fourth District of Missouri, which I represent. 
This stretch of river is lined by about 35 levees designed to 
protect some of the best farmland this country has to offer 
from being ruined by raging floods. This spring and summer 
every one of these levees was under constant assault by 
hundreds of millions of gallons of flood water. Farmers 
scratched out schedules with their neighbors so that they could 
hold constant vigil 24 hours a day for months on end.
    Now, think about that. During the watches of the night they 
were on their cell phones, stationed at different places along 
the levee for months. They gave time away from their families 
and their businesses to hold vigil over these levees. They were 
watching for breaks, seepage, sand boils, acting quickly to 
shore them up, if needed.
    Even though almost every one of our levees became saturated 
and sustained significant damage, they performed remarkably 
well, as a whole, with only enough overtoppings or failures to 
count on one hand. But our farmers lost crops due to backed up 
rainwater that could not flow out to the river. The Food and 
Agriculture Policy Research Institute at the University of 
Missouri, also known as FAPRI, estimates that at least 28,000 
acres of farmland was flooded in my district due to that 
backwater, destroying over $23.8 million worth of crops in my 
district.
    Now our levees are in desperate need of repairs before next 
spring's flood season. Time is of the essence. The months of 
complete saturation of the levees and high waters have left 
their toll. The levees are weakened and in need of repair now. 
Red tape needs to be cut and contracts for repair need to be 
let now. It is 3 months as of tomorrow before the beginning of 
March and the rain season again. We need to have these levees 
repaired.
    The National Oceanic and Atmospheric Agency stated earlier 
this month that there is a high probability of flooding in the 
Missouri River Basin in 2012. Congress and the Corps of 
Engineers must make the repair a priority to avoid a similar 
situation occurring next year, or we could be here again.
    Many residents feel that these floods could have been 
reduced, if not completely avoided, by earlier action and 
better prioritization of uses by the Army Corps of Engineers.
    I look forward to hearing the other testimony today and 
receiving the Corps' reports on its actions. And my fellow 
Members and I will continue to press them to make flood control 
the number one priority of the river system at all times.
    I want to echo the comments of my fellow colleagues here 
and urge them to take into account: one, last year's runoff; 
two, increased capacity of the reservoir for flood control; and 
three, act sooner in the event of significant snowfall/rainfall 
this winter.
    Mr. Chairman, I also appreciate your invitation to 
introduce one of my constituents who will be testifying before 
you here on today's panel.
    Tom Waters is a seventh generation Missouri farmer who 
lives near Orrick, Missouri, in the Missouri River flood plain, 
where he produces corn, soybeans, wheat, and alfalfa. Tom 
serves as chairman of the Missouri Levee and Drainage District 
Association, where he represents not only the levee and 
drainage districts, but also the businesses and others 
interested in the activities surrounding the Missouri River and 
its tributaries. In addition to holding several other public 
offices, he serves as president on three local levee and 
drainage district boards, which, combined, represent over 
21,000 acres of Missouri River bottom land.
    He is an articulate spokesperson for the farmers of the 
Heartland. So please consider what he has to say. Ask him 
questions. Because he truly is an expert on this issue.
    So thank you again, Mr. Chairman, for your courtesy and for 
your interest in this vitally important topic. Thank you.
    Mr. Gibbs. Thank you.
    Mrs. Noem from South Dakota, welcome.
    Mrs. Noem. Thank you, Mr. Chairman. Thank you for having 
this hearing today. And thank you, Representative Carnahan, as 
well, for being here and bringing attention to the Missouri 
River system, which experienced devastating flooding this year. 
Hundreds of homes in South Dakota were damaged and destroyed. 
Businesses were disrupted. Many were displaced for months.
    This was not like most natural disasters. This flood lasted 
for over 90 days. It began in late May and it ended in late 
September. The situation began in February as runoff levels 
into the system from snowpack in the mountains and northern 
plains began to far exceed normal amounts. As flood storage 
within the system depleted throughout the spring, releases 
across the system were not increased to adequately compensate 
for the risk of future runoffs and rains.
    Then came May. With flood storage depleted, torrential 
rains fell in Montana. On May 23rd, the Corps announced that it 
was increasing releases to 70,000 cubic feet per second from 
the Oahe Dam near Pierre, South Dakota. This was 11,000 cfs 
over the previous record. Residents and communities along the 
river began to sandbag, constructing berms. Yet 5 days later it 
was announced that the five lower dams would reach 150,000 cfs, 
nearly double what the Corps had announced just days earlier. 
Releases finally peaked at around 160 cfs for the four dams in 
South Dakota. The result was a slow-moving disaster of epic 
proportions.
    I believe, as others have stated, that this flood was part 
natural disaster and part manmade disaster. Certainly we cannot 
discount that some amount of human error did occur. The Corps 
has repeatedly reiterated that it operated in accordance with 
the master manual, and that rain in May was a significant 
contributing factor in the flooding. However, this reasoning 
does not account for the runoff that occurred from February to 
April.
    While it is likely that some amount of flooding could not 
have been avoided, given the runoff and the rain flowing into 
the system, surely something could have been done differently 
that would have avoided releases that were double and nearly 
triple previous records.
    From all the information that I have seen, I believe the 
Corps of Engineers carries some responsibility for this 
disaster. That level of responsibility should be explored 
during this hearing.
    Another area where I disagree with the Corps is on timely 
notification of residents about the possibility of flooding. 
This is what I hear the most from people back in South Dakota. 
Many of those along the river can prepare for higher than 
normal releases, if given reasonable advanced notice and 
adequate information. In fact, that happened in 1997, when we 
faced historic levels. This year they were afforded neither.
    I hope the Corps is committed to more effective 
notification about runoff, releases, and the risk of flooding 
in the future. And as we try to rebuild and put this behind us, 
there are many lingering questions. The biggest one is: Could 
this ever happen again? And this is of particular concern 
because the National Weather Service forecasts indicate that we 
are continuing in a wet cycle with significant precipitation 
and snowpack predicted for 2012.
    We should have learned something from this year's 
experience to better plan for future wet cycles. The Corps 
needs flexible management of the river to account for these 
trends, and still allow for the proper balance between the 
authorized purposes of the system, with the number one priority 
being flood control.
    Witnessing this disaster and reviewing the management plan 
going forward have left me with a lot of questions. The first 
one is: On November 4th the Corps indicated it would change its 
approach to the 2012 annual operating plan as a result of 
public forums. What does it intend to change? And how is it 
going to take a ``more aggressive stance,'' as it said?
    What is the Corps doing to promote a more dynamic, real-
time decisionmaking in the future, including modifying their 
forecasting and hydrologic models, and incorporating all of the 
available data?
    Number three, the Corps has both internal and external 
review panels going on right now. They should be completed by 
the end of the year. What is the process for modifying their 
management practices, based on the finding of these panels?
    Number four, does the Corps have the flexibility within the 
manual to more adequately deal with future wet cycles and the 
type of conditions we experienced this year? The Corps has cost 
estimates for repairs to the system--finally--caused by the 
damage this year. But do they have estimates for the total 
economic cost of the flooding this year?
    This flood event and future management questions regarding 
the Missouri River system are why this hearing is so critically 
important. I look forward to the testimony of the other 
witnesses.
    And I have my own written statement, Mr. Chairman, I would 
like to submit for the record. And I also would like to ask 
that statements provided by Laurie Gill, the mayor of Pierre, 
Jeff Dooley, manager of the Dakota Dunes Community Improvement 
District, and Kim Blaeser, a home owner and treasurer of the 
Riv-r-Land Homeowners Association, also be included into the 
record.
    Mr. Gibbs. So ordered.
    [Hon. Kristi L. Noem's statement is featured with the other 
witnesses' statements--please refer to the ``Prepared 
Statements Submitted by Witnesses'' section of the table of 
contents. The other information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Noem. I would like to take an opportunity to quickly 
introduce one of the witnesses that is going to be on the 
second panel, if that would be fine with you, Mr. Chairman.
    Mr. Gibbs. Proceed.
    Mrs. Noem. Brad Lawrence is the director of public works 
for the city of Fort Pierre, one of the communities that was 
devastated by the flooding this year. He has extensive 
knowledge and experience with the river system. He was one of 
the very first people to sound the alarm that flooding was 
going to happen back in February, long before the record rains 
ever came.
    I am pleased he is here today. I would ask that his full 
written testimony and statement be included in the record, as 
well.
    And thank you, Mr. Chairman, for the opportunity to testify 
before the committee today, and for holding this hearing. And I 
certainly yield back any balance of my time.
    Mr. Gibbs. Thank you.
    Mr. Cleaver from Missouri, welcome.
    Mr. Cleaver. Thank you, Mr. Chairman. Mr. Chairman Gibbs, 
Mr. Carnahan sitting in for Ranking Member Bishop, and members 
of the subcommittee, thank you for allowing me to provide 
testimony on the tragedy that occurred in my home State and 
throughout the Midwest this past summer.
    We need to examine the events and actions that led to this 
flood and ensure that resources are available to assist Federal 
agencies, States, and communities with recovery efforts and 
preparations for 2012. We also must re-examine the way we 
predict and prepare for floods. Flood control must be the 
primary purpose of the Missouri River reservoir system.
    Kansas City was extremely fortunate to escape, for the most 
part, the massive devastation that nearby communities upstream 
endured. But it certainly has not escaped in the past, and may 
not in the future. Kansas City is particularly vulnerable to 
flooding, sitting at the convergence of the Kaw, Missouri, and 
Blue Rivers. As mayor of Kansas City in the 1990s, I had to 
deal with the devastation and aftermath of the great flood of 
1993. That year the Missouri River crested at a record 48.87 
feet. Damage to the city's utilities and public infrastructure 
reached over $17 million.
    Currently, eight Federal levees in the metro area--and 
because they are now rickety and worn through the decades--span 
60 miles and protect $15 billion worth of assets. We have been 
trying to fund and complete projects to improve and repair 
these levees and other flood control projects since I was 
mayor.
    I would like to highlight a few impacts of this year's 
flooding of the Missouri River, commonly known as The Big 
Muddy. By midsummer, all non-Federal levees in Missouri north 
of Kansas City were breached or overtopped, as well as several 
others downstream. North of the river, the suburbs of Parkville 
experienced flooding, including the English Landing Park. Even, 
Mr. Chairman, areas where levees held, fields experienced 
damage from seepage and sand boils.
    I visited several farms east of Kansas City this summer 
that had private levee seepage in their fields. The Miami Levee 
District Number One in Saline County experienced flooded fields 
from seep water, causing fields to remain unplanted and 
drowning their plants. One private levee in the multi-bin 
bottoms of Saline County was breached in early July. Bottom 
land farmers in Saline County recorded 128 consecutive days 
with the river above flood level, and the river in that area 
did not go below flood stage until September 29th. Clay, 
Jackson, Ray, Lafayette, and Saline Counties experienced a 
total of over 31,300 crop land acres flooded, and over $26.6 
million in lost market revenue. Fields may take between 3 and 5 
years to come back to full production. And perhaps 10 to 15 
percent of flooded land will never return to production.
    Kansas City is not, as the Nation knows, a professional 
football powerhouse. However, it is a major warehouse and 
distribution hub, and a leading agro-business center. The metro 
area has the second busiest rail yards in the Nation. And it is 
first in the Nation, in terms of tonnage.
    Interstate 29 is a major travel and shipping corridor 
northward from the city. The prolonged closure of I-29 and 
resulting damage to the city's commerce was particularly 
injurious for a city founded by traders in the late 1700s.
    Great Plains Energy, the parent company of our local 
utility, KCP&L, reported a 4-percent drop in third-quarter 
earnings, particularly and partially due to expenses from the 
flooding. The placement of several power plants near the river 
required KCP&L to sandbag, build concrete walls, and other 
physical preparations to protect the plant, purchase additional 
power in case the facilities had to shut down, and conserve 
coal while the railroad service to plants was closed.
    As you can see, Mr. Chairman, this photograph is of the 
plant in June, the end of June. And the next photograph is a 
few days later, July 8th. Almost everything around it under 
water. BNSF Railroad had about one-third of their 1,500 trains 
on the network rerouted daily during the height of the flood.
    Congress and the Corps must learn from this tragedy and 
modify flood control policies to decrease the likelihood of 
such an event happening again. We also need to understand why 
increased releases from upstream reservoirs were not occurring 
earlier in the spring. The National Oceanic and Atmospheric 
Administration can predict patterns such as La Nina seasons, 
and provide monthly precipitation forecasts.
    Mr. Chairman, we have a very serious problem. It is not 
going to go away without congressional involvement. It is my 
hope that, with the Missouri delegation across political lines 
are coming together saying we need to act, I think most of us 
support our colleague, Mr. Graves's, legislation, and it is my 
hope that we can move quickly to get this completed.
    Mr. Gibbs. Thank you.
    Mr. Luetkemeyer from Missouri, welcome.
    Mr. Luetkemeyer. Thank you, Mr. Chairman. And thank Ranking 
Member Carnahan as well, for holding what I believe is an 
extremely important hearing.
    There are thousands of people living and working along the 
140 miles of the Missouri River that run through my district. 
It is essential that they have the support needed to protect 
their lives, businesses, and property from flooding. These 
people, along with millions living throughout the lower 
Mississippi River Basin, depend on the steady flow of the 
Missouri for their power generation, navigation needs, and 
ability to move goods to both domestic and international market 
places.
    This summer a high Missouri River and full reservoirs 
served as a prescription for disaster, resulting in a 
devastating flood that impacted hundreds of families and 
businesses that call the banks of the river home.
    In January, snowpack in the upper basin was 141 percent of 
normal, and forecasts of the NOAA predicted that runoff this 
spring would be historically high, and it wound up being even 
higher than the forecasts. Releases from Gavins Point Dam were 
pushed to 160,000 cubic feet per second, more than double all 
previous releases, as has been detailed here already this 
morning.
    Ultimately, hundreds of thousands of acres of farmland were 
flooded. Some farms were under water for more than 15 weeks, 
resulting in complete loss of crops for many.
    According to a recent study conducted by the University of 
Missouri, more than 207,000 acres of crop land were destroyed 
in 24 Missouri counties alone, resulting in nearly $176 million 
in lost revenue. This translates into a total economic loss in 
the region of more than $326 million.
    To address this levee damage the Corps says they won't have 
the funding necessary to rebuild the levees to pre-flood 
levels. However, one can't help but take notice of the 
significant disparity of funding for habitat restoration and 
land acquisition, and then the funding dedicated to operations 
and maintenance. Mr. Graves has a bill that points this out and 
addresses this issue.
    There is a tremendous emphasis right now that has been 
placed on habitat restoration and compliance with the 
Endangered Species Act instead of the protection of life and 
property. We think this needs to be re-prioritized. It is 
obvious the Corps is juggling too many competing interests. And 
again, Mr. King has a bill also that addresses this issue.
    While the upper and lower basins have historically had 
different management philosophies, I believe it is time to work 
together to ensure that the best policies affecting the 
Missouri River are put in place. After this year's event, it is 
obvious that planning must change, and management must change, 
to ensure this event is not allowed to happen again.
    Flood control must be the Corps' primary objective in 
managing the river. And levee repair and reconstruction must be 
a priority. I urge the committee's consideration of these and 
all the other Members that are here today, their comments, and 
to take action.
    Mr. Chairman, with that I yield back. Thank you for the 
opportunity to be here this morning.
    Mr. Gibbs. Thank you.
    Mr. Fortenberry from Nebraska, welcome.
    Mr. Fortenberry. Thank you, Mr. Chairman, and thank you for 
holding this important hearing to examine the impacts of this 
Missouri flood, and the strategies for potential management 
reforms that will help mitigate the consequences of such 
flooding in the future. We really appreciate your time.
    This summer, as Congressman King so vividly articulated, I 
saw for myself the devastation caused by the flooding along the 
Missouri. In Nebraska, communities from Blair to Brownville, I 
witnessed the hardships imposed upon families, individuals, 
communities, farmers.
    I saw the efforts of volunteers and city crews armed with 
sand bags, working day and night to protect home, businesses, 
parks, and city infrastructure. I saw the successful measures 
taken at our two nuclear energy power facilities in Brownville 
and Fort Calhoun, to ensure the flood waters posed no further 
threat to public safety. Frankly, Mr. Chairman, it was a bit 
surreal to see a boat tied to a nuclear power plant.
    Nebraska, like other States along the Missouri River Basin, 
was hit very hard. Families' lives were turned upside down. 
Some Nebraskans lost their homes. Others lost farms and 
businesses. A recent analysis commissioned by the Nebraska Farm 
Bureau estimated the total impacts of the flood related to 
Nebraska agriculture is set at about $190 million. According to 
the Nebraska Emergency Management Agency, public assistance 
estimates for damage from the flooding are in excess of $150 
million. Individual assistance has exceeded $3.7 million, and 
small business assistance is more than $3.6 million. Overall 
projection of damages along the Missouri River totaled more 
than $2 billion, as we have heard.
    I know that many employees of the U.S. Army Corps of 
Engineers worked very hard during the period of the flooding to 
keep citizens informed of water levels and threats to public 
safety, while providing direct and technical assistance. They 
also remained accessible through various avenues of contact 
with the public and through Government agencies.
    During and after the flooding events, though, many of my 
constituents questioned river management decisions made by the 
Corps, and these decisions' impacts on the severity of the 
flooding. While it is clear that certain areas affecting the 
Missouri River experienced record amounts of snowmelt and 
precipitation this year, creating record levels of runoff, it 
is necessary that we thoroughly examine how existing river 
management policies have played a role in the flooding and its 
dramatic impacts.
    We must also take this opportunity to consider new 
strategies for flood control, moving forward. The 2011 flood 
and its extraordinary consequences necessitate a re-evaluation 
of river management.
    To this end I have joined several of my colleagues here, 
the Missouri River Basin Members of Congress, in supporting 
legislative efforts to compel a reassessment of upstream 
management for the purpose of preventing catastrophic flooding 
events that negatively impact all Missouri River users.
    One of these proposals by Mr. King, H.R. 2942, would direct 
the chief of the Army Corps of Engineers to revise the Missouri 
River mainstream reservoir system master water control manual 
to ensure greater storage capacity to prevent serious 
downstream flooding. Upstream reservoirs would be required to 
remain low enough to accommodate high levels of runoff and 
prevent devastating downstream flooding.
    On a related matter, earlier this month I introduced H.R. 
3347 to exempt any road, highway, or bridge damaged by a 
natural disaster, including a flood, from duplicative 
environmental document reviews if the road, highway, or bridge 
is reconstructed in the same location.
    We must do all that is possible to help prevent another 
tragedy. For the sake of public safety, a reassessment of the 
Corps' Missouri River policies is in order.
    It is my hope that today's hearing will be a constructive 
first step in this regard.
    And I thank you, Mr. Chairman, for the time.
    Mr. Gibbs. Thank you.
    Mr. Terry from Nebraska, welcome.
    Mr. Terry. Thank you, Mr. Chairman. And I appreciate your 
flexibility in allowing me to come in at the last moment.
    Mr. Gibbs. You made it just in time.
    Mr. Terry. We have a markup on farm dust bill occurring and 
we just broke, so I was able to come over here. But I think it 
is interesting that while we are dealing with protecting 
farmers from EPA and dust, any potential dust protection 
regulations, that many of our farmers were under water this 
entire summer. And now, since the river has receded to almost 
normal level, what is left is sand and debris, making farmland 
unusable for years to come. So, the water has receded, but the 
issues affecting our farmland and bottom lands have not.
    My constituents, as Jeff Fortenberry's constituents, are 
worried already about next year. And that is why a bill like 
Steve King's bill is important to discuss, and the role of the 
Corps of Engineers, going forward. My constituents and I--and 
discussions with many of our political leaders throughout the 
State--firmly believe that the Corps of Engineers must return 
to their basic principles and purpose of the dam system along 
the Missouri River, which is flood control.
    In my discussions with the Corps of Engineers, they have 
informed me that they have six, seven, eight different criteria 
that are their priorities. I am sorry, but you can't have eight 
different items, many of which are in conflict with each other, 
as your priorities. Pick one, and then try to work the others 
in where they may. But having pallid sturgeon and piping 
plovers as the priority one year, and flooding the next, 
doesn't work.
    So, therefore, I would encourage this committee to look 
forward at creating a priority for the Corps of Engineers, and 
making that priority flood control--which, again, the whole 
purpose of the dam system was flood control. Let's get back to 
the Corps' roots and initial purposes here, and control the 
floods. Let's make sure what happened this year, will not 
happen next year.
    And I have submitted--and I think it is already in the 
record--my full statement. So I will yield back the rest of my 
time. And thank you for this opportunity.
    Mr. Gibbs. OK. Thank you. That concludes our first 
panelists' hearing, the Members. And thank you for your input. 
This is very valuable, and you are representing your 
constituents very well.
    We will give a minute or two here for our second panel to 
come up to the front daises. While the next panel is getting 
situated, Mr. Boswell would like to make another comment. The 
floor is yours.
    Mr. Boswell. Thank you, Mr. Chairman. I think I would like 
to just speak from the heart, just for a second, to the 
committee, to you, sir, and the ranking member, and whoever 
else wants to listen.
    You know, I soldiered for a long time, as many others did. 
I don't believe for a minute that the Corps of Engineers would 
deliberately do anything to harm anybody. I don't believe that. 
I think we go through a process, the 14-year plan, which gets 
vetted through everything we can think of. And then finally, 
after everybody has massaged it, it gets approved. Sometimes 
referred to as ``The Bible,'' they go out and they try to put 
it into action. And I have learned in my life it is pretty hard 
to please everybody.
    But I just want to say, from my point, as I look at those 
at the table, and as I meet with people out across the country, 
I doubt if they asked for this job to start with, and we gave 
it to them, and they bring a lot of expertise to the table. 
They are dedicated men and women. And I think it is OK for us 
to--I want to say this--I heard somebody say, ``Investigate, 
investigate.'' That is not a good word. I think we need to 
review.
    When I think about all the concrete that has been put down 
across the country and the increased runoff, tiling, and the 
things we do, it changes things. But one thing that the Corps 
or you or I or none of us can do is to predict with great 
accuracy what Mother Nature is going to do. And the 10-inch 
rain or the heavy snow or the late temperature change and the 
late runoff and all these prior things that have been talked 
about by the previous panel was very good, very real. That is 
what people are faced with.
    But I think what a proper term is, you know, if we have had 
two 500-year floods in the last 10 years, or one, or whatever, 
it is OK to review. And I think that is what you are doing. And 
I want to compliment you for having this hearing and going 
through this discussion. And if I can participate in any way 
down the way, I would be happy to do that.
    Thank you for what you are doing. This is good. I 
appreciate it.
    Mr. Gibbs. Thank you.
    Mr. Boswell. The panelists are getting ready to appear. 
Thank you for your service to all these things and our country. 
Thank you very much.
    Mr. Gibbs. Thank you, Representative. I will just quickly 
comment on your comments there.
    I think the intent here is to have discussion, open 
dialogue. And hopefully everybody will learn something, and we 
can make better policy. And my guess is one of the Corps' 
challenges might be there is conflicts in law that is causing 
problems, because the changes happen back in the demographics 
and dynamics. So that is--I think we all got the same goal. We 
will find that out in a few minutes.
    But before we get to the second panel, Mr. Carnahan has a 
procedural issue.
    Mr. Carnahan. Yes, just a--Mr. Chairman, thank you. And 
just wanted to ask unanimous consent to submit a statement for 
the record on behalf of our colleague, Eddie Bernice Johnson.
    Mr. Gibbs. So ordered.
    [Hon. Eddie Bernice Johnson's statement is featured with 
the other statements from Members of Congress--please refer to 
the ``Prepared Statements Submitted by Members of Congress'' 
section in the table of contents.]
    Mr. Carnahan. And also had a letter from the U.S. 
Department of Interior Fish and Wildlife Service, which I would 
just point out makes the point in the letter that the--they did 
not take the Endangered Species Act into account, did not have 
an affect on operations in--with regard to this flood in 2011.
    I want to submit that for the record and then two others 
from the National Wildlife Federation and the American Society 
of Civil Engineers. We would just ask unanimous consent to 
submit those for the record.
    Mr. Gibbs. OK. So ordered.
    [The written statement of the American Society of Civil 
Engineers is featured with Hon. Bob Gibbs's submissions for the 
record. Please refer to the table of contents for Hon. Gibbs's 
submissions for the record. The other information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Carnahan. Thank you.
    Mr. Gibbs. OK. At this time I want to welcome our second 
panelists. And I will just review quickly.
    We have Brigadier General John McMahon. He is the commander 
and division engineer of the United States Army Corps of 
Engineers, Northwestern Division.
    We have Ms. Kathy Kunkel, who is the county clerk at Holt 
County, Missouri. I can't see you. That must be you, OK.
    Mr. Tom Waters, chairman of the Missouri Levee and Drainage 
District Association; and Brad Lawrence, director of public 
works, city of Fort Pierre, South Dakota; and Richard Oswald of 
Langdon, Missouri.
    Welcome. And we will start with the general.

  TESTIMONY OF BRIGADIER GENERAL JOHN R. MCMAHON, COMMANDER, 
 NORTHWESTERN DIVISION, UNITED STATES ARMY CORPS OF ENGINEERS; 
   KATHY J. KUNKEL, COUNTY CLERK, HOLT COUNTY, MISSOURI; TOM 
    WATERS, CHAIRMAN, MISSOURI LEVEE AND DRAINAGE DISTRICT 
 ASSOCIATION; BRAD LAWRENCE, DIRECTOR OF PUBLIC WORKS, CITY OF 
FORT PIERRE, SOUTH DAKOTA; AND RICHARD OSWALD, FIFTH-GENERATION 
 MISSOURI FAMILY FARMER, AND PRESIDENT, MISSOURI FARMERS UNION

    General McMahon. Mr. Chairman and members of the 
subcommittee, thank you for this opportunity to discuss the 
Missouri River flooding of 2011, as well as the ongoing and 
future activities of the Northwestern Division of the Army 
Corps of Engineers to respond to the flood. I am John McMahon, 
commander of the Northwestern Division, and I want to 
acknowledge upfront that the Corps is fully cognizant of the 
physical, economic, social, emotional impacts of the many 
people in the basin due to the flooding this year.
    Actions by our Omaha and Kansas City districts during the 
Missouri River flooding this summer were extremely effective in 
reducing flood damages. The Corps expended approximately $83 
million on fortifying existing levees, building temporary 
levees, monitoring dam and levee safety and other activities, 
such as providing flood fight supplies to state of emergency 
offices within Corps authorities under Public Law 84-99.
    For example, in South Dakota the Corps constructed 
approximately 4 miles of temporary levees in Pierre and Fort 
Pierre. Temporary measures were also constructed for the 
Standing Rock Sioux Tribe to mitigate risk to the causeway and 
the water intake.
    The Missouri River main stem reservoir system was operated 
in 2011 in accordance with the master manual. The water 
conditions in the Missouri Basin have been extraordinary this 
year, particularly above Sioux City, Iowa. Compared to the 
normal 25 million acre feet of runoff, we expected this year's 
runoff to exceed 60 million acre feet, more than double the 
average, and the highest on record. Of critical importance is 
the understanding that May, June, and July of this year were 
the third, first, and fifth highest months of inflow in the 
113-year period of record.
    Each year the Corps evacuates flood control space before 
the spring and summer runoff occurs, and this year was no 
different. All of the 2010 flood water had been evacuated by 
late January of 2011, and we had the entire required 16.3 
million acre feet of space available at the start of this 
year's runoff season. Our computer models demonstrated that 
since 1898, this storage would have been enough every previous 
year to adequately capture spring runoff and manage water flow 
throughout the system.
    We witnessed a tremendously different and new hydrologic 
data point this year. Consequently, we are taking a hard 
analytical look at what this information may suggest in terms 
of future operation and alternatives and adjustments.
    In addition to the Corps internal review of reservoir 
operations, we initiated an external review of our operations, 
which is currently underway and scheduled to conclude in the 
end of December. And we intend to make the results and outcomes 
of that available to this committee and the public in early 
January.
    The Corps followed and continues to follow a carefully 
evaluated water evacuation plan over the past several months. 
High releases were maintained through mid-August, and then 
stepped down at a pace that reduced risk to infrastructure, 
levees, and river banks, and allowed the flood plain to drain. 
The plan included fall and winter release rates low enough to 
allow continued inspection and repair of both Federal and non-
Federal infrastructure.
    The Missouri River Flood of 2011 officially concluded on 
the 17th of October 2011. The water evacuation plan in place is 
allowing homeowners, farmers, and businesses to get back on 
their properties to begin their repair and recovery as quickly 
as possible. And the objective of our plan is to bring the 
entire system back to its full annual flood control capacity by 
the 2012 runoff season. In addition, we are committed to 
maintaining a flexible posture and aggressive release schedule 
throughout the winter and spring, if it appears that 2012 will 
be another high runoff year.
    Now that the river is receding, we have begun post-flood 
actions. These include an assessment to review the water 
management operation, a technical review of the flood fight 
response, and a concerted effort to assess and repair 
infrastructure such as dams, levees, and navigation structures.
    Concurrent with these actions, the Corps, the Federal 
Emergency Management Agency, and the Department of Agriculture 
are co-chairing the Missouri River Flood Task Force. The task 
force provides a forum for coordination among Federal, tribal, 
State, stakeholder, and local government partners within the 
States of Nebraska, Montana, Iowa, South and North Dakota, 
Wyoming, Kansas, and Missouri on flood recovery and related 
flood risk management actions and initiatives. The task force 
will streamline governmental processes and decisionmaking, 
accelerate necessary assessments, coordinate permitting 
requirements, and apply agile and critical thinking to the 
problems that we face.
    Since May of 2011, our Assistant Secretary of the Army for 
Civil Works has exercised her emergency authority provided 
under Public Law 84-99 to transfer funds from other 
appropriation accounts to the Flood Control and Coastal 
Emergency appropriation account to respond to the flooding and 
to begin addressing repairs from this year's disasters. To 
date, the Corps has completed five transfers, totaling $282 
million. The last two transfers, totaling $207 million, allowed 
the Corps to begin addressing a portion of the highest priority 
life and safety repair requirements, nationwide.
    In order to develop the best estimates of repair 
requirements nationwide, local Corps districts and divisions, 
including my Northwestern Division, working with non-Federal 
sponsors, are inspecting damaged projects and preparing 
assessment reports. The Corps has set up a rigorous process for 
technical experts to examine the requirements and prioritize 
those requirements based on risk to life and safety, among 
other parameters. The Corps is prioritizing projects to 
leverage its resources to complete assessments and proceed 
forward with the highest priority repairs. To date, $54.6 
million have been used on the Missouri River flood recovery.
    We recently concluded eight open house sessions and public 
meetings in cities throughout the basin to listen to the 
concerns of our citizens as part of the annual operating plan 
development for 2012. As part of these meetings, we 
communicated that the top priority of the division and the 
Corps is to responsibly prepare for the 2012 runoff season.
    A primary concern raised in the public meetings was the 
Corps strategy to evacuate water from the Missouri reservoir 
system back to the designated amount of flood control storage. 
That is the design 16.3 million acre feet, which equates to 
approximately 22 percent of the storage in the system. Given 
record runoff, the Corps has initiated a technical analysis to 
determine whether more reservoir space might be needed to be 
reserved for flood control purposes in the future.
    At this point, the Corps has assumed a more flexible 
posture, as water is evacuated through the system for the 
remainder of the fall and early winter. The Corps will also 
take a more aggressive stance with winter and spring releases. 
The Corps will communicate more frequently and more broadly as 
the 2012 runoff season unfolds. We will conduct bimonthly 
conference calls and during those calls, dialogue will continue 
with Federal, State, county, and local officials, tribes, 
emergency management officials, and independent experts, and 
the press to discuss the conditions on the ground and the 
current Corps reservoir release plans and forecasts. Audio 
files of these conference calls will be made widely available.
    In summary, the 2011 flooding was the result of an extreme 
hydrologic event. While much damage occurred in the basin, the 
system of dams and levees functioned as intended and prevented 
or provided substantial benefit. Without them, the damages and 
safety risks would have been much greater. While the system 
remains vulnerable until the levee repairs are made, no major 
deficiencies have been identified to date that would preclude 
normal operation of the dams in the spring of 2012.
    This concludes my testimony. Thank you for allowing me to 
testify about the flooding and the future operation of the 
Missouri system. And I would be happy to answer questions of 
the Members here.
    Mr. Gibbs. Thank you.
    General McMahon. Thank you.
    Mr. Gibbs. Mr. Waters, welcome.
    Mr. Waters. Mr. Chairman, thank you and thank you for the 
opportunity to testify today. I have submitted written 
testimony, and attached to that testimony is a report from the 
Food and Agricultural Policy Research Institute, FAPRI, in the 
University of Missouri. And I would ask that my testimony and 
that report be entered in the record.
    Mr. Gibbs. So ordered.
    Mr. Waters. Thank you. I am looking forward to answering 
questions, so I will try to be brief and just hit the 
highlights of that written testimony.
    First of all, the 2011 flooding. You know, it is not rocket 
science, what happened. We had too much snow and too much rain 
in the upper basin. The system of dams and reservoirs could not 
handle the runoff. The flood control systems below the dams and 
between the dams couldn't handle those record releases that we 
saw. So it is not really a question of what happened, but more 
of a question of why and, even more importantly, what do we do 
about it now.
    I believe there is not enough flood control storage in the 
reservoirs. We have these six huge reservoirs in the upper 
basin, but only 6 percent is dedicated exclusively for flood 
control. There is another 16 percent that is for flood control 
and all these other uses. And I believe that 16 percent needs 
to be used exclusively for flood control also, so we have a 
full 22 percent that would be dedicated for flood control.
    The other thing I see is there is more water entering the 
river faster. In the written comments I give an example of how 
the development over the last 20 to 30 years has changed the 
way that water enters the river. All the concrete and asphalt 
and roofs that have been developed over the last 20 or 30 years 
has water coming into the river faster and more of it. And we 
haven't increased our levee improvements or flood control 
projects on the Missouri River that help compensate for that 
development.
    That leads me to the Corps budget. The Corps of Engineers 
budget is very much out of balance. The 2012 budget for the 
Missouri River recovery program--that is the fish and birds and 
the endangered species program--was $72.8 million. On the other 
hand, Operation Maintenance budget is only $6.2 million. And 
the problem I see is the Corps follows the money. They are 
seeing that $72.8 million, and they focus on fish and wildlife, 
and not flood control.
    In fact, since 1992, the Corps has spent $616 million on 
fish and birds. That is well over a half-a-billion dollars. And 
according to the National Academy of Science, most of that 
money was wasted because what they have been doing is not 
working.
    You know, we can spend $20 million on a levee project, and 
it puts people to work, creates jobs, and when we are done we 
have a levee sitting there that you can physically see that is 
providing protection to homes, property, and lives. When we 
spend $20 million on fish and birds, more likely than not we 
end up with a 200 or 300-page study and a report that sits on a 
shelf. And then we also get a box of hotel receipts and airline 
ticket receipts from these bureaucrats and agency employees 
traveling all over the country for meetings and conferences and 
seminars. This has got to change.
    In my experience, I have only seen two things that changed 
the Corps' focus. The first one is legal action through the 
courts, and that is long and drawn out. The other is 
legislation. And I believe this committee can start now to 
force the Corps to focus on flood control.
    The third point I would like to make has to do with the 
levees. Been a lot of talk about the levees and the damage 
there. And I just want to remind the committee that it is the 
responsibility of Congress through Public Law 84-99 to fund 
levee repairs. And it is the responsibility of the Corps of 
Engineers and the local sponsors to fix those levees.
    With the NOAA forecasts for the coming year showing above 
normal precipitation, these folks are going to be at even 
greater risk going into next spring. And so the people along 
the river aren't interested in task force and working groups 
and committees and these seminars. They are interested in 
funding the levee repairs, and getting them fixed.
    The last point I want to make has to do with alternatives 
to levee repairs. There has been a lot of talk about not 
repairing levees. And in my written comments, I stress the 
importance of the fertile farmland found along our Nation's 
rivers. You know, even if we took out all the infrastructure, 
all the roads, businesses, homes, and power lines, et cetera, 
there is still highly productive farmland left in the river 
bottoms that deserves and is warranted protection.
    With the growing population that we see now and in the 
future, inexpensive and safe food is a matter of national 
security. And I think when you take land out of production, 
that is a threat to our national security.
    I see my time is up, and I will yield the microphone and 
just say thank you again for the invitation. I am really 
looking forward to answering questions.
    Mr. Gibbs. Thank you.
    Mr. Lawrence, the floor is yours. Welcome.
    Mr. Lawrence. Good afternoon, Chairman Gibbs, Ranking 
Member Carnahan, distinguished committee members. My name is 
Brad Lawrence. I am a mechanical engineer working as the 
director of public works for the city of Fort Pierre, South 
Dakota.
    Fort Pierre is situated just 5 miles downstream of the Oahe 
Project, the third dam of a six-dam system. Thank you for 
inviting me to testify about the Missouri River Flood of 2011. 
I intend to discuss two major topics: the U.S. Army Corps of 
Engineers' response and the impact to the smaller communities 
along the Missouri River.
    There are two major sources of water to the reservoirs, 
snowpack and rainfall. I have two slides that I will 
incorporate into my testimony today.
    The first one is the snow water equivalent slide, figure 
number one, for the upper Missouri River Basin. This slide is 
the basis for my testimony, and covers March 1st through June 
30th. The top line in green is the snow water equivalency for 
the northern Rockies. The second line, in red, is the snow 
water equivalency for the central Rockies. And the bottom line, 
in blue, is the snow water equivalency for the plains 
snowpacks. The rising lines are increased amounts of water and 
snow that hasn't melted that will eventually run into the 
basin. The decreasing lines are the melting and running off of 
the stored water in the snowpacks. This information comes from 
the National Weather Service.
    In early 2011 it was apparent that the plains snowpack was 
going to contribute a significant amount of runoff. I wrote a 
widely disseminated email indicating the risk for flooding was 
increased by the plains snowpack. While it looks comparatively 
small, the plains snowpack covers a vast area. Even at only 3 
inches of snow water equivalency, the runoff from the plains 
filled more than 50 percent of the total available flood 
storage by May 1. The plains snowpack and the snow water 
equivalency was a visible and quantifiable risk. The 
accumulation peaked just prior to March 1st, and then melted 
off by May 1st.
    On Fort Peck, by May 1st, approximately 33 percent of the 
storage available on March 1st was filled by the plains 
snowpack runoff. On Garrison, the amount was closer to 58 
percent of the storage available on March 1st was consumed by 
this plains snowpack runoff. And on Lake Oahe, nearly 80 
percent of the storage available on March 1st was consumed by 
the plains snowpack runoff.
    The next graph is for the Garrison reservoir. The key to 
take away from this slide is that when the blue line is above 
the green line, the reservoir is filling. And when the green 
line is above the blue line, the reservoir is draining. The 
inflow curves show many aspects of the runoff into the 
reservoirs. The sharp spikes are from significant increases in 
the runoff over short periods of time, either from rapid snow 
melts or rain events, or a combination of the two.
    Back on the snow water equivalency chart, you can see that 
the mountain snowpacks climbed relatively steadily to their 
maximum values near the 20th of April and began melting around 
the 1st of May. Please note the sharp drop from May 1st to May 
10th. That sharp drop creates a significant amount of water 
that runs off into the reservoirs.
    The sharp rises in the Garrison reservoir, figure two, 
inflow indicates significant events. You can clearly see the 
spikes of the inflow from rainfalls and rapid snow melts. While 
these spikes are significant, they pale in comparison to the 
large hump that starts in early May and continues to the end of 
July. That large hump is the overall mountain snowpack runoff.
    The notion that the perfect storm rains in Montana caused 
this major flood just doesn't hold water. You can see for 
yourself that while the volume of water from those events is 
significant, it doesn't measure up to the volume contained in 
the plains or mountain snowpack runoffs, both of which were 
visible and measurable prior to the perfect storm.
    It is also interesting to note that the Corps of Engineers 
began increasing the flows from Garrison significantly prior to 
any rain falling in Montana. In fact, they were at near-record 
releases prior to the rain falling.
    While no one could have predicted the heavy rains in 
Montana in May, everyone could have predicted that the water 
stored in the snowpacks was going to run off. The failure to 
determine the risk involved in the water stored in the plains 
and mountain snowpacks led to a lack of decisive action. The 
reality is that with this much water stored in the snow, it was 
inevitable that we would flood. The lack of preemptive action 
led to much higher stages on the river, and consequently, more 
damage.
    Nearly 50 percent of the residents of Fort Pierre were 
evacuated from their homes, many for as many as 100 days. There 
are still nearly 100 homes that are unoccupied. Our little 
community is financially devastated after this event. Others 
downstream are in a similar or worse situation. The duration of 
this event is unprecedented and is the root cause of the 
financial hardship.
    The most troubling issue for many South Dakotans was a lack 
of clear communication from the Corps. An early warning of any 
kind was never issued. Even during initial stages of the event, 
the communication of anticipated water levels kept changing 
daily. That made preparation nearly impossible. Greg Powell, 
the city engineer from the city of Chamberlain, says he is 
still waiting for a call to warn him that his local reservoir 
is going up 4 feet over a June weekend.
    In closing, I would like to use the words from Jeff Dooley, 
community manager for Dakota Dunes. He writes, ``The summer of 
2011 will be ingrained in the memory of everyone who lives, 
works, or farms along the Missouri River. This event has 
changed people's lives forever. My personal property was not 
damaged by the flood, but as the manager of the community I had 
to witness the distress caused by this event as my friends and 
neighbors were asked to leave their homes behind. This cannot 
happen again.
    ``We need to find out if and why these extreme releases 
were necessary, and recognize or admit what we could or should 
have done to prevent it. Again, in a controlled river system 
there has to be an expected margin of error. But this year's 
releases far exceeded any reasonable expectation of those 
margins.'' I concur with Jeff's findings.
    Thank you, Mr. Chairman, for inviting me to speak at this 
hearing, and I will be available for questions.
    Mr. Gibbs. Thank you.
    Ms. Kunkel, welcome.
    Ms. Kunkel. Chairman Mica and the members of the committee, 
I appreciate the opportunity to come before you all and speak 
today as an elected official of Holt County, Missouri, and I am 
here to represent those people who live in a vast flood plain 
who have been devastatingly impacted by this year's floods. I 
would like to share with you a bit of their story, as well as 
their overall concerns with the Corps of Engineers and their 
insistence that they retain the rural way of life that they 
have had, lived, and managed for over 170 years in my county. 
And I will be brief on my remarks, so that we can move on to 
questions.
    I do want to reiterate that I most assuredly agree with the 
congressmen and women who came and sat at this table before me.
    There are many issues to discuss related to this flood. 
Certainly there was snow and rain beyond measure that we have 
seen in this system before. But certainly there is a shouldered 
responsibility by the Corps of Engineers for how they looked at 
that, how they managed it, and how they opened the gates and 
sent a deluge of water into my county, putting 630 people out 
of their homes, covering over 120,000 acres of farm ground in 
10-foot-deep water with 3-foot waves. It devastated homes that 
had been built to national flood insurance protection 
standards. Those homes had been elevated one 1 above the base 
flood elevation. But the water came higher than base flood 
elevation. And it lasted for 106 days.
    My county's western border borders Nebraska and Kansas. I 
have a 52-mile western border that is all leveed. Some of it is 
non-Federal levee. Some of it is Federal. I have 32 breaches in 
my county. One of them is a half-a-mile wide. Some of them are 
50 feet.
    We don't yet have clear estimates on what the money is 
going to be to fix what is there. And that is extremely 
frustrating for the people of Holt County, because while the 
Corps was telling us, ``We don't have the money to send people 
out to take a look at your levees and determine the estimable 
damage,'' they were at the courthouse buying land to put into 
mitigation projects. And that is the problem for the people in 
Holt County. The Corps has been able to buy 8,000 acres in my 
county, take it off the tax rolls, take it off the yearly 
economic annual production that goes with agriculture, creating 
pallid sturgeon chutes and wetland sites within my county.
    I also have an 8,000-acre national wildlife refuge that we 
hold in high esteem. We very much believe in conservation in 
our rural area. They brings hunters to the area. They are a big 
part of our economy. But what we are seeing with what the Corps 
is doing is creating pallid sturgeon chutes that has put water 
right up against the levees. Those are the areas where my levee 
district members had immediate problems as this river came 
down. The chutes put water into the levees, causing overtopping 
and degradation of the substructure of the levees.
    So, I am going to ask that the Corps be responsible to 
Congress, once again calling that flood control be the primary 
purpose of the Corps, and that we take a look at removing some 
elements of the Endangered Species Act as part of its 
compliance, so that my county can try to get back on its feet 
and move forward.
    And I will yield my time so that we can move on to 
questions. Thank you.
    Mr. Gibbs. Thank you.
    Mr. Oswald, welcome.
    Mr. Oswald. Thank you, Mr. Chairman and members of the 
committee, for allowing me to share my experience with the U.S. 
Army Corps of Engineers Missouri River inundation of 2011. I am 
a fifth generation Missouri farmer from Atchison County, 
Missouri. I have lived my entire life where I was born in the 
house built by my parents on our family farm in the Missouri 
River valley near Langdon.
    Since it was built in 1939, our home has been touched by 
the Missouri River three times. First, when after a few days' 
advance warning in the spring of 1952, rapid snowmelt caused 
unavoidable flooding along newly constructed levee L550. That 
flood did little damage to our farmstead. My parents, my 
sister, and I returned to our home within 3 weeks. Dad raised a 
good crop that year. The second was in the summer of 1993, when 
heavy rains fell across the entire Missouri watershed. 
Following the late July flood, my wife and I and our daughter 
returned in mid-August. Most fields and roads were undamaged.
    After several weeks' advance notice, levee L550 breached 
for the third time on June 23, 2011. We were told well ahead of 
time to expect a flood. The reaction among most of us was that 
if flooding could be anticipated so far in advance, why wasn't 
something done to prevent it. The managed, uninterrupted flow 
of this flood kept us away from our home for more than 100 days 
until October.
    Unlike most homes in the valley today, ours is still 
habitable. FEMA insurance adjustors have placed the insured 
damage to our farmstead at over $30,000. That is minor, 
compared to my neighbor's heavy losses. But the adjuster did 
tell me that he could adjust more losses if I had had more 
insurance.
    Some of the most productive valued farmland in Missouri is 
on the river bottom in Atchison County. According to the 
satellite imagery study by Scott--Dr. Scott Brown of the 
University of Missouri, at least 47,000 acres of crops were 
lost there. Local officials on the ground estimated over 60,000 
in earlier estimates, due in part to an inundation map 
circulated by the Corps implying an unprecedented bluff-to-
bluff flood from Gavins Point to St. Louis. But really, on our 
farm, just as on so many others, final determination has not 
been made because crop insurance adjustors have not visited 
where much of the area remained inaccessible into November.
    About 1,400 acres of contracted seed soybeans and specialty 
food corn worth over $1 million were lost on our farm. Close to 
half those acres were under irrigation. Crop insurance based on 
my 10-year average yield will cover only part of the loss. Dr. 
Brown estimated in his study that, for most farmers, combined 
insurance and disaster payments are still insufficient. But no 
matter what the settlement, as a result of this flood our farm 
and many others have not grown the food and energy crops that 
American needs now.
    Over the last several years, river management has made life 
especially difficult for bottom land farmers like me. Damage 
done by this flood to many productive fields is irreparable. We 
have huge sand dunes and blowouts. Sandstone chunks from a 60-
foot deep crater litter one field. Drainage ditches that should 
allow flood water to drain back to the main channel are plugged 
with silt and sand from the river. Fertile fields lay stark and 
barren.
    Repairs to just 4 miles of Highway 136, a major two-lane 
river crossing in our county, cost over $3 million to perform. 
Jobs and commerce at the intersection with Interstate 29 were 
lost for months during the flood, when the highway closed. Many 
local residents who work across the river just 10 minutes away 
were faced with 2\1/2\-hour one-way commutes. Rural roads like 
the 7 miles in Langdon's road district were left impassible by 
washouts and debris.
    Work to bring them back to normal continues. FEMA is 
helping, but only 75 percent of those costs are eligible for 
aid. The way things stand now, without levee protection, all 
our work and money spent could be for nothing if the water 
returns. But the estimated cost to repair levee L550 is $47 
million. To date, less than half of that amount is promised.
    Land, our most valuable agricultural asset in Missouri, 
faces lowered tax valuation in flooded areas, placing a strain 
on basic local government services, including local rural 
schools. Millions of dollars in farm buildings and homes have 
been destroyed.
    Besides personal property, Missouri County assessors are 
required to reassess ag land values up or down, as situations 
change. Our county clerk estimated that, with continued 
flooding, assessed values on the river bottom land could drop 
from $4.7 million to just a little over $238,000. That is going 
to cost local governments thousands in revenue and farmers 
millions in productivity each year the flooding continues. 
Property owners and farmers feel it first. But eventually, the 
entire community takes the hit.
    Because of the damaging length and severity of this flood, 
and lack of funding for maintenance and repair, flooding again 
in 2012 seems almost certain, unless Congress and the U.S. Army 
Corps of Engineers can make flood control their number one 
priority.
    Thank you, sir. I appreciate you hearing me.
    Mr. Gibbs. Thank you. And good luck in the future. You have 
got a lot of challenges there to work with.
    I will start the first round of questions. And General 
McMahon, my first question is, we know there is at least eight 
competing interests, you know, flood control, irrigation, 
municipal water supply, and so on. How do you balance those 
competing interests? And is any of them more important than the 
others?
    General McMahon. Thank you for the question, Chairman 
Gibbs. The eight authorized purposes are borne out of the 1944 
Flood Control Act and subsequent legislation and judicial 
rulings that are all now manifest in the master manual, which 
is the guideline for how we balance the eight authorized 
purposes. And through that legislation and those judicial 
rulings, the two predominant purposes are flood control and 
navigation. And they are very tightly balanced, such that 
adjustment under the current regime of law and judicial rulings 
is minimal.
    Mr. Gibbs. You just said flood control and navigation 
should be the core mission. I would agree with that. But how do 
you answer the amount of dollars going for other projects, 
environmental stuff and renovation?
    And also, we know that the amount of damage out there, the 
administration and Secretary Darcy has not come to Congress and 
asked for emergency funding. You are actually having to take 
funds from other projects to rebuild these levees. I mean how 
do you balance that?
    General McMahon. Yes, sir. So, you know, the Corps receives 
appropriations in different accounts: investigations, 
construction, and operations and maintenance. And so the 
numbers that you heard today are only one--they only reflect 
the Operations and Maintenance account. They don't reflect the 
Construction and the Investigations account.
    When you look at all appropriations across all the business 
lines in 2011, we had: $72.8 million allocated and spent for 
flood risk management; $15 million for navigation; $61.4 
million for hydropower; $13.3 million for environmental 
stewardship; $800,000 for water supply; $21.6 million for 
recreation; and $87 million for environmental restoration. So 
that was last year's budgeted and spent amount, sir.
    Mr. Gibbs. I believe in 2012 the request for ecosystem 
restoration is $470 million.
    General McMahon. Well, I am just talking about on the 
Missouri River.
    Mr. Gibbs. Oh, OK, OK.
    General McMahon. So I think the figure you are citing is 
across the Corps.
    Mr. Gibbs. OK.
    General McMahon. With respect to the administration's 
request, as you say, sir, we are involved, through the 
Secretary's office, of making transfers of money that has been 
appropriated for other purposes. The wiggle room associated 
with those is narrowing as each iteration unfolds. And at some 
point we are going to need new money to continue the very 
important work that needs to unfold with respect to repair and 
restoration of the system to get back to its pre-2011----
    Mr. Gibbs. Well, I guess that is where I am a little 
surprised, because our capacity for flood control in this basin 
is--has not got to a level where--getting ready for next 
spring, and to do these repairs, I'm thinking the seasonal 
issue is to get repairs done. I think you got major challenges.
    My next question. We heard some testimony from some of the 
Members. What is your priority in your systems to collect the 
data, you know, what is going up in the mountains, the head 
waters, the monitoring of that? How nimble is the Corps to make 
those adjustments, so they can see that they have got a huge 
snowpack and they have got--you know, the rainfall starts up in 
the mountains. Do you have the monitoring data to, you know, 
make those adjustments in a real-time basis?
    General McMahon. Yes, sir. I mean, in short, there is an 
extensive network in the plains and in the mountains for 
measuring snow. And, of course, we rely on the National Weather 
Service to make rain forecasts.
    Could the system be more extensive and improved? Probably 
so. And we will get some feedback from the independent external 
panel that has been chartered to look at how we collect data, 
how we use it to forecast, how we integrate with the National 
Weather Service and so on, that may lend itself to improve 
procedures. So that report, as I said, is due out at the end of 
December.
    But I think, in general, we have state-of-the-art systems 
to collect and integrate information and make the best water 
management decisions that are based on the best available 
information.
    Mr. Gibbs. Thank you.
    General McMahon. It is not perfect, though.
    Mr. Gibbs. OK. We will probably get back to that. We heard 
testimony from some of my colleagues about--can you comment 
about this--how much red tape there is doing these restoration 
projects, getting the levees rebuilt? Is there anything that we 
can do here in Congress to help streamline, make it easier to 
expedite those projects?
    General McMahon. There are steps associated with anything 
the Corps undertakes, as a bureaucratic part of Government. I 
won't deny that. They are generally necessary, and generally 
following the process keeps you out of court and lets you get 
down to business.
    And so, there are emergency conditions that allow us to 
streamline steps in the process, and we are exercising every 
one of those. And I will add that the Missouri River Flood Task 
Force is aimed at bringing all the Federal agencies to exercise 
their authorities, permitting and what not, so that we are--
left hand and right hand know what each other are doing, and we 
are making the best available decisions, and expediting those 
decisions to minimize the red tape, as you call it, Mr. 
Chairman.
    Mr. Gibbs. OK. My time is up. Mr. Carnahan?
    Mr. Carnahan. Thank you. And I want to thank all the panel 
for being here. And again, the folks that traveled all the way 
here from Missouri, we appreciate you all being here to share 
your stories.
    I want to start with Richard Oswald. You have been out here 
many times, talking about these issues. And I wanted to 
specifically get you to focus on what improvements could have 
been made in communicating with you and communities along the 
river about the floods and the impacts that they have.
    Mr. Oswald. Well, I think that the decisionmaking that goes 
into an event like this is opaque to most of us in the country. 
We aren't familiar with how these decisions are arrived at. But 
I think that when you involve the entire community in the 
discussion about decisions that are made, rules that are 
followed, goals and objectives, then maybe you have a better 
outcome.
    I think it is clear that the needs--the importance of rural 
America, especially productive areas like northwest Missouri, 
who are incredibly productive areas that produce all kinds of 
crops and energy crops that we need, and I think that is 
ignored a lot of times for other goals. And I think we need to 
look at the value that rural America offers and consider that 
in any of these discussions.
    Mr. Carnahan. And, you know, we heard the general describe 
some of the efforts that they have had to--have multiple 
community meetings and to get input from the community in terms 
of what they are doing. Obviously, we are having this hearing 
today to learn from what happened.
    But do you feel like those are valuable, and do you think 
they need to be done differently, or there need to be other 
areas to get that input where it needs to be to decisionmakers?
    Mr. Oswald. Well, I think that this points out the 
importance of everyone being involved, not just the Corps 
making these decisions, but Congress needs to be aware of the 
decisions that are made, and why. And, of course, we rely on 
our representatives in Congress to look after our best 
interests always. And so I believe that, for too long, Congress 
has really not been that involved in this decisionmaking. So I 
would like to see them do that more.
    But I would have to say that, you know, the Corps came to 
our community and way before this flood occurred, and visited 
the city water plant that is just across the road from some of 
the land that we farm, some of our machine storage, some place 
where we work quite often. And they placed a mark on the side 
of the building of that Rockport City water plant that was far 
higher, by at least 8 feet, than either the flood of 1952 or 
1993.
    And so, a lot of the residents, all of us who had lived 
there through those other floods, wondered where that mark came 
from. We knew where the water levels were in those floods, knew 
them very well. I even have a mark in one of my farm buildings 
at home, marked it in 1993. That is where the water level was. 
And if the water had gone to the level the Corps said that we 
should prepare for, it would have been at least 8 feet deeper 
than what we actually experienced in 1952, 1993, and 2011.
    And so, a lot of us----
    Mr. Carnahan. That seems like a gigantic missing the mark 
here.
    Mr. Oswald. It is puzzling.
    Mr. Carnahan. Right. General, I want to go to you real 
quick and I am--with the bit of time I have on this round.
    Funding. Obviously, we are in tight budgets here. But you 
are aware the waterways users have come together over this last 
year, working with the Corps to increase the--you know, 
voluntarily say--to raise the diesel fuel taxes that they all 
pay in navigating the river, and also talking about reforms 
with the Corps. Talk about the impact of that and how that can 
help in going forward, in terms of resources.
    General McMahon. I am aware of the collaboration that has 
occurred with the navigation industry and the Corps and others 
to seek a better leveraging of public and private funds, 
Congressman. I think, as with any such proposal, there are puts 
and takes to it. There are advantages and disadvantages. I 
believe that it is working its way through the system. And I 
think any such arrangement would be helpful.
    And I think we need to look at the other authorized 
purposes, recreation being another example of where money that 
is brought into the Government can be leveraged with private 
money, much like what was done with the residential community 
initiative that the Army and the Air Force and the Navy 
undertook under special legislation that allowed private money 
to build housing for soldiers, sailors, airmen, and Marines; 
quality houses on installations and reap the rent, the basic 
allowance for quarters that the soldier, sailor, airman, Marine 
would get. So it was win-win-win. It was quality housing, it 
was leveraging other people's money, not DOD money, and it paid 
a dividend, if you will, to the investor. That kind of 
arrangement we need to think outside the box on, and see how 
that would apply across all authorized purposes.
    Mr. Carnahan. Thank you.
    Mr. Gibbs. Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman. And first off, 
General, thank you for your service to our country. I have read 
your bio. You are a highly decorated officer, and thank you 
very much for what you are doing. Not only what you are doing 
now for the Corps, but also what you have done in the past. So 
thank you for your service, sir.
    As a military officer myself, we definitely are painfully 
aware, from what we are talking about today, of what the 
problem is. The question I have now is: How do we move forward? 
What do we need to do next? Can you kind of give us a snapshot?
    For example, one of the things that actually affected us up 
in the Eighth District of Minnesota is that 460 trains per day 
had to be rerouted because of flooding. What are we doing to 
protect something like that from occurring into the future?
    And then I have a follow-on, sir.
    General McMahon. Thank you for the question, Congressman. 
You know, I think, first and foremost, as you say, and has been 
suggested here, we need to work together. Because this problem 
is bigger than any of us. And I think there is clear resonance 
across the basin for the value and the importance of flood 
control.
    There is existing flexibility to do smart things in the 
near term. But long term, we are probably going to need to 
relook at new legislation to authorize and appropriate, for 
example, a revision of the master manual, as one example.
    There is also the Missouri River Authorized Purposes Study, 
which in some camps is viewed as a conspiracy to do away with 
the navigation on the Missouri River. In fact, it is designed 
to look at all eight authorized purposes and review them in the 
context of current contemporary needs and future needs, looking 
out 50 years. Well, that wasn't funded.
    So, there are things like that in the works that I think we 
need to dust off and reconsider how we are looking at them, and 
the useful purposes that might spin out of those kinds of 
investments. Not that we want to spend too much money and spend 
too much time studying.
    We need to come up with a set of recommendations against 
making those eight authorized purposes relevant to contemporary 
and future needs, make a set of recommendations to the 
Congress, and then have the Congress authorize adjustments 
across those eight authorized purposes as might be recommended, 
as an example, sir.
    Mr. Cravaack. Thank you, sir. And one of the things we are 
painfully aware of here in Congress is that things take time. 
What I am hearing today is that we don't have too much time, 
because we are expecting the same--possibly the same--type of 
flooding happening next.
    For example, in the trains that we were just talking--I 
just mentioned, I mean, what immediately can be done to help 
ensure that these 460 trains aren't having to be rerouted, and 
making sure that we get produce where--you know, materials 
where they are supposed to be?
    And as a follow-on, if I can, being a military officer, 
like I said, myself, we do answer to civilian authorities. And 
you kind of alluded to it. Is there anything that would be 
precluding your ability to combat this flood now or in the 
future that has been mandated down by civilian authorities that 
would prevent you from executing your mission?
    General McMahon. With respect to the various components of 
infrastructure--railroads, roads, bridges, intakes, water 
intakes, and so on--there are many examples, a lot of which was 
damaged as a result of this event, and some of which has been 
funded for repair, either by private money--in the railroad's 
case by public money through the Federal Highway Administration 
is another example. I know Interstate 680 east of Omaha into 
Iowa has been repaired and opened now since the flood occurred 
and damaged that very severely.
    I know States and localities have undertaken local repairs 
to local roads and bridges. All that is unfolding, as we speak, 
now that the water is off of the flood plain and we can see--
assess the damage, make estimates, and apply funding to those 
repairs.
    For that infrastructure that the Corps has responsibility 
for, as we said earlier, we have been moving money around, 
transferring funds to the tune of about $280 million so far. 
But it is a very small downpayment on a much larger bill, 
estimated across the United States--due to not just this 
flooding event, but Mississippi flooding, hurricanes on the 
East Coast, and other events--to the tune of over $2 billion, I 
think Ms. Darcy testified a few months ago. So that money needs 
to be appropriated for--in my opinion--and the sooner, the 
better. And I think that is clearly one of the big messages 
that all of us need to have resonance on.
    I am not aware, sir, of any authorities that restrict or 
constrain what I need to do, with respect to getting the system 
repaired and restored, other than getting the appropriations in 
hand so we can move out.
    Mr. Cravaack. Thank you, sir. I am over time and I yield 
back.
    Mr. Gibbs. Ms. Edwards?
    Ms. Edwards. Thank you, Mr. Chairman, and to our ranking 
member. I appreciate being here--and also to our witnesses.
    I live in Maryland. And so I don't really have any 
particular pecuniary interest in what happens along the 
Missouri, except the fact that the importance of both 
commercial and other activity along the river have a real 
impact on people like me, who just want to go to the grocery 
store and get good food.
    And so, that said, I think it means for us, as taxpayers--
and those of us who are in Maryland who have other kinds of 
water interests--that we also share a responsibility for what 
happens along that river, and then particularly when there are 
catastrophic events that have a deep impact on the agriculture, 
commercial viability, you know, enjoyment and recreation and 
other uses along the river.
    One of my observations in listening to the testimony is 
that I am baffled by why there isn't a more kind of 
comprehensive management strategy under one authority for the 
entire river basin. I know that in Maryland, when it comes to 
the Chesapeake Bay and our ability to protect that, the 
Nation's largest estuary, and it involves, you know, multiple 
States and jurisdictions, that we have had to have a more 
comprehensive management approach to that, because no one 
individual jurisdiction or interest can possibly meet the 
responsibility, and because not one of those interests is more 
important than the other.
    And so, I am just a little confused as to why, over this 
long period of years under which there have been various 
strategies employed to manage the events that occur in the 
flood plain, there isn't some more comprehensive single point 
of authority and coordination for Federal resources and other 
resources that need to be put into play.
    Earlier there was a fair amount of testimony in the earlier 
panel and some on this one about the particular purpose in fish 
and wildlife management, including endangered species, and that 
impact on--you know, as a contributing factor of this 
devastating event. And I do note, just in the reading of the 
testimony and some other resources, that in fact, some of the 
management strategies that the Corps has used were, in fact, 
not employed that would have gone to the regular uses and 
purposes for endangered species and for fish and wildlife and 
habitat management. And so, I don't really think that has 
anything to do with what happened here. And I hope that we 
could get actually beyond singling out one particular purpose, 
instead of looking at this a little bit more comprehensively.
    I also just note--and had to do a little bit of checking--
but the study that, General McMahon, you just mentioned, the 
Missouri River Authorized Purposes Study, MRAPS, was authorized 
at $25 million. It was appropriated in 2009 and 2010 at $7.3 
million. And then it was suspended in 2011.
    And as a disinterested party, I am unclear why anyone would 
not want to look at all of the authorized purposes, look at the 
reasons that they are authorized, figure out strategies to 
balance those purposes and impacts, and why we wouldn't fund a 
study to do that. It would certainly mean to me, as a taxpayer 
in Maryland, that there would be a better expenditure of 
funding if I knew how those things could be managed in a more 
useful way to meet the various needs that are present in the 
river basin. Again, just an observation.
    And then, lastly--I will allow General McMahon to answer 
this--in a recent op-ed you wrote that, notwithstanding the 
legitimate calls for preeminence of flood control purpose, 
there are many other means to the same end that ought to be 
considered as we go forward. Flood risk can be mitigated beyond 
creating more space in the existing system. And then you go on 
to describe other kinds of structural and non-structural things 
that should be considered.
    And I wondered if you could elaborate on that so that we 
don't just confine the--our questions about what can happen 
only to these very traditional means of levee and reservoir 
management. Thank you.
    General McMahon. Congresswoman, thank you for your 
observations.
    With respect to your question, I think we need to take a 
comprehensive look at all aspects of this problem and think 
broadly and deeply about the future, the long-term future of 
the basin, so that we make wise investment of limited Federal 
dollars in this very constrained fiscal environment that we are 
all in, and do smart things with whatever money is ultimately 
appropriated to this end.
    And so, the ideas expressed in that op-ed are not 
necessarily new ones, but they are ones that came out of the 
1994 Galloway Report after the 1993 flood event in the Missouri 
River Basin, and others that have evolved since then, to think 
deeply and broadly about this opportunity to seek win-win, 
synergistic-type solutions that look across all aspects of the 
problem and apply--and it has been done successfully in places 
like Rapid City, South Dakota, as an example, on a much smaller 
scale. But you go there, and you see the benefits of that kind 
of thinking applied to a much smaller-scale problem, and yet it 
is a wonderful thing to see that kind of thinking applied to 
that kind of a problem.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Long?
    Mr. Long. Thank you, Mr. Chairman. And thank you all for 
being here today.
    General, I have a--in part of Mr. Lawrence's testimony he 
said the most troubling issue for many South Dakotans was a 
lack of clear communication from the Corps. An early warning of 
any kind was never issued, even during the initial stages of 
the event. Communication of anticipated water levels kept 
changing daily. That made preparation nearly impossible.
    Greg Powell, city engineer of city of Chamberlain says he 
is still waiting for a call to warn him that his local 
reservoir was going up 4 feet over the weekend--over a June 
weekend.
    And my part of Missouri--which is not the Missouri River 
part, I am down in the southwest part of the State, Joplin/
Branson/Springfield area--we have Table Rock Lake down there. 
Earlier in the spring, before the Missouri River problems, we 
had flooding issues down there. And someone from the Corps--you 
have Table Rock, of course you have Beaver feeds into Table 
Rock, feeds into Taneycomo down the line to Bull Shoals, and I 
guess down at Georgetown. And of course water levels concern 
everybody through the area.
    But the Corps came to the people in Branson, along the 
banks of Taneycomo, which is below Table Rock Dam, went house 
to house and said--at 2:00 told them--my cousin happens to have 
a house there. They told him personally, said, ``At 2:00 we are 
going to start releasing 28,000''--would it be cubic feet a 
second or a minute? A second? Said, ``At 2:00 today we are 
going to release 28,000 cubic feet per second.''
    So he did the deciphering, and he said, ``All right. Past 
experience, 28,000 cubic feet a second, it will be about 30, 35 
feet from my house.'' That was at 10:00 in the morning they 
told him they would do that at 2:00. At 11:30 they started 
releasing the 72,000--I am doing this from memory, so the 
numbers might not be--but you get the gist of the story. It was 
over three times what they said they were going to release, and 
they released it 2\1/2\ hours before they told him. So, instead 
of 33 feet from my house, we now have 4\1/2\ feet of water in 
his house.
    With communication like Mr. Lawrence experienced in South 
Dakota, and the Army Corps in Branson, how can we work on a 
better line of communication, when the events like this are 
going to be thrust upon us?
    General McMahon. Congressman, I will admit that we probably 
could have and should have done a better job in communicating 
what transpired. During that period of mid-May to the end of 
May, there were successive bouts of rain in Wyoming, Montana, 
and North and South Dakota that were totally unprecedented, and 
as has been testified already earlier today, that really threw 
us for a loop.
    And so, over a period of 5 days, we bumped up release 
announcements from 85,000 cubic feet per second, which is 
already a record, to 150,000. And I understand why people would 
be upset, and would wonder what the heck is going on. But it 
was fundamentally as a result of monitoring actual rain flows, 
or rainfall, and then measuring the inflows to our reservoirs 
that caused us to make those rapid adjustments in a very short 
period of time.
    And we worked with local and State networks of 
notification. And obviously, it wasn't adequate enough. And 
that is one of the things that we have identified that we 
should do better and we will do better, as we enter into the 
2012 runoff season with a commitment twice a month to have this 
big call and bring whoever wants to be in on the call to update 
them on release schedules, on forecasts, on what we are seeing 
and why we are seeing, what we are planning to do and why, and 
to answer questions.
    So, we intend to leverage that lesson learned as we go 
forward here, and hopefully expand the network of notification 
all the way down to individual farmers. But it is a concerted 
effort at many levels of Government, sir.
    Mr. Long. The Birds Point levee was blown in Missouri by 
the Corps. And then the people in that area were told that 
they--the Corps would not build it back to its pre-flood or 
pre-whatever it was level, before they blew it, because they 
didn't have the money to do it.
    There is a thinking in our part of the world that if they 
would have happened to have found a left-handed bluebird that 
had three yellow dots on its right wing, that that money would 
have been available.
    What--give me your top three things that we--if I said we 
are going to go to Redskins stadium and let the first 10,000 
people or so in that want to kick the Corps around, we would 
fill it up in 10 minutes. For some reason people like to kick 
the Corps and pick on the Corps, which--I am not for doing 
that. I am for figuring out what--how to make this better for 
everyone, Corps included, ourselves included. We can't make 
this a perfect world, by any stretch. But to make it a better 
world in 2012 and going forward, give me your top three things 
that we, as Members of Congress, can do to help you do your 
job, which, in essence, helps the American public.
    General McMahon. I think, first and foremost, is the 
appropriation. It is, without a doubt, the most important 
thing. We need the means to achieve the ends of repair and 
restoration. And of course, you know----
    Mr. Long. Do you have any idea how much money you are 
talking? I mean to repair what needs to be done to a better 
state than it was before, what are we talking about? Do you 
have a number?
    General McMahon. I am talking about repairing it to its 
pre-2011 flood condition, which is authorized under the Public 
Law 84-99. And in the Missouri River Basin alone, it is between 
$500 million and $1 billion. That number is being refined, as 
we speak, on the basis of being able to access the levees and 
get inside the dams and see the damage and make the cost 
estimates and the scopes of work. So, that work is ongoing, as 
we speak.
    The second thing, I think, is to work with us, as Members 
of Congress, with the Governors, with local officials, with 
private entities such as Tom Waters and the Missouri Levee and 
Drainage District Association. This has got to be a team 
effort. I mean we are not going to solve this alone.
    And there are many different disparate needs here that are 
at play. And I will leave it at that. And I am not saying that 
one should be better than the other, but we have got to figure 
out, based on what we have learned this year, how to make 
adjustments to the authorized purposes, to re-balance them and 
those kinds of things.
    And so, I think many of the pieces of legislation that have 
been suggested here today and have been on the books the last 
few months are things that we are fundamentally already doing. 
They are underway. And, as has been noted, take time to 
conclude. We are undertaking a study to understand how much 
more flood control space we ought to allocate on the basis of 
this new data point, as an example. Well, that will take a few 
months. And by the end of this spring, by the end of March, it 
should have a good recommendation to put forth for 
consideration of additional flood control space and the trade-
offs association with such a new number.
    So those things take time, and they are underway. So we 
don't necessarily need new legislation to cause us to do that. 
We are already doing it. It just takes time, and there----
    Mr. Gibbs. OK, I----
    General McMahon. There is many things like that that are 
happening, sir.
    Mr. Gibbs. Thanks. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. And hopefully we 
will have a second round, because I have a ton of questions.
    California, as you know, has a great relationship with the 
Army Corps. They do an excellent job in many of the areas. And 
as you well know, you talk about--surreal is driving up Highway 
5 where there are hundreds of thousands of homes, and looking 
up in the levees up there, and there is a ship going by. This 
is surreal.
    So we deal with those issues in our State. And of course, 
Mother Nature has been throwing us many curves, and we think 
there are going to be many more to come. So working together, 
as you have indicated, General, is--working together as a team 
is what is going to help us be able to prepare, and try to help 
ourselves.
    Now, it is always a matter of funding. Do we have enough 
money? What takes priority? And who sets those? So that brings 
me to the authorized study that was defunded, if you will, 
suspended this year. And who voted to suspend those? Do you 
guys know that?
    And why did they do that, knowing that you already have 
issues--you say in 1983 and 1997 floods, or whatever those 
years were--that you may be expecting, and now having this one, 
looking back and saying, OK, we have a history, are we going to 
get another one this year? What is the next cycle that we are 
going to be facing the same situation, and how are we going to 
prepare?
    And to that, was that an earmark that has been taken down 
because of the money factor, not realizing it is going to cost 
us more in the long run to be able to put the farms back in 
operating, the levees back up, and the safety of all of that 
which you deal with on a daily basis? We don't.
    So that is just food for thought. But going to the cost of 
the study, to me that would certainly be part of maybe a 
solution to bring all the partners to be able to be part of 
that study, so that everybody feels not left out, but rather, 
included so that there is more of a wider network, if you will.
    A question to you, General. Did the Corps work with the 
tributary reservoir's control by the Bureau of Reclamation to 
coordinate the runoff? And can you kind of touch upon what kind 
of coordination did take effect? And then, listening to the 
issue of getting communication going, how soon will that be 
available to coordinate with all the parties that want--not 
only want to be on it, but the radio stations and others that 
can immediately put the word out?
    General McMahon. Thank you for the question, Congresswoman. 
With respect to coordination with the Bureau of Reclamation, we 
have a very close relationship with the bureau in the 
Northwestern Division, and we coordinated very closely as this 
event unfolded. We have what we call section VII authority. 
That is space in many of--not all of, but many of--the Bureau 
of Reclamation reservoirs that is reserved exclusively for and 
controlled by the Corps of Engineers for flood control.
    And so, we worked very closely to leverage that space. And 
sometimes that space is in the right place. And sometimes, 
depending on where the rain and the snow melt, and how fast the 
snow melts, it is in the wrong place. And so we worked very 
closely with the bureau to optimize the available space under 
section VII authorities.
    The Missouri River Task Force, ma'am, is the place where 
Federal, State, other agencies--you know, we all come 
together--the tribes, and we work through this--the four C's, I 
call it: collaboration, coordination, cooperation, and 
communication. And so we are going to continue to do that. We 
had our first meeting back in Denver in October, and we have 
our next meeting in Kansas City on the 12th of December.
    Every week working groups have been formed, and are meeting 
virtually to work specific problems inside specific lanes. And 
you know, it is beginning to gain momentum and make a 
difference. And that work needs to continue as we go. One of 
those working groups is the strategic communications working 
group, which will help us disseminate information better as the 
2012 season unfolds.
    Mrs. Napolitano. The statistics you pointed out earlier, 
does everybody have those, have the--you shared them with the 
folks that are here, or to the Members of Congress, so they 
know specifically the amount of money that went into those 
different programs?
    General McMahon. I haven't shared everything with them. 
They are part of the public record. But I did send a letter to 
Senator McCaskill and I copied Senator Blunt with these 
specific numbers in them, among other numbers, going back to 
fiscal year 2008.
    Mrs. Napolitano. Well, I would suggest you communicate that 
to these folks, so they know----
    General McMahon. Yes, ma'am.
    Mrs. Napolitano [continuing]. What you are actually dealing 
with.
    General McMahon. OK.
    Mrs. Napolitano. Then, just to--and I am already over my 
time, but I have one more question. The Missouri River study 
would have addressed the ranking of priority of the stated 
operation's objectives, hopefully. What would it take to get 
this program started up again? Funding for the study? Is it the 
cooperation of all the folks involved? What would make this 
happen, so that you can try to avoid a worse catastrophe in the 
future?
    General McMahon. Yes, ma'am. You know, looking at the 
history of the basin, there has been a tension between the 
upper basin and the lower basin, a distrust, for many, many 
years. And that is evaporating as--or has evaporated, I would 
say, as this 2011 flood event has occurred. Now is the time to 
strike, while the iron is hot, while people understand the 
value of flood control, and get people together and rethink how 
we might leverage the Missouri River Authorized Purposes Study, 
as just one example of working together to create a better 
future for the basin.
    Mrs. Napolitano. Thank you very much for your testimony, 
and thank you for your service, sir. To the rest of you, thank 
you for being here. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. And I appreciate all 
the witnesses being here. And I appreciate, General McMahon, 
you being here. And I have always showed an openness, I guess, 
to give the Corps of Engineers the benefit of the doubt in many 
cases. But I have to be honest with you. There were three 
things that happened through this process that seriously 
undermine my confidence in the Corps' decisionmaking process.
    The first one was when you all sent that letter out to 
start buying land in the shadow of this event. Having said 
that, it--you know, I wonder just exactly what the--you know, 
the process that goes into that.
    The second thing that happened was when your internal 
emails were made public, and it appeared to me that the Corps 
was more interested in your image and how it was going to be 
affected by this event than you were in managing the river. 
And, having said that, we will move on to the third one.
    The third one was your immediate decision--and that has 
been since modified--to not accept the new data and manage the 
river based on last year's levels, which, given the fact that--
you know, and the frustrating part is the Corps wants to come 
back and say, you know, ``It is not our fault, it is not our 
fault, we had record rainfall and record snowfall,'' which is 
exactly right. You didn't know how much rain was coming. But 
you did know how much snowfall that you had. And, in fact, your 
river management office made that statement public, you knew 
how much--that you had record amounts of snowfall, and you 
thought you were going to be able to handle it.
    Now, moving forward with that--and we have to concentrate 
on where we are going with this--you know, my first question to 
you is are we going to be able to make repairs to all of the 
levees to some degree, to any degree, along the river? Because 
we have people exposed up there, entire communities that are 
exposed. And you know that. I know you know that. And homes, 
and everything else. But are we going to be able to make those 
repairs before this spring season?
    And then I have got follow-ups with that.
    General McMahon. Yes, sir. Thank you for the question, 
Congressman Graves. We are going to get as much done as the 
weather permits and as funding permits. But I can tell you we 
are not going to get nearly all of it done before the runoff 
season of 2012 begins----
    Mr. Graves. Exactly.
    General McMahon [continuing]. On the 1st of March.
    Mr. Graves. So wouldn't it make sense, then, to immediately 
adopt the position if we are going to have lower levee levels 
because of the breaks--and in some cases, I don't think any of 
those breaks--or in some cases I don't think those breaks are 
going to be able to be repaired in any degree, just based on 
the ability to get to them--but wouldn't it make sense 
immediately to go ahead and lower the levels, or increase the 
capacity?
    That doesn't take a study to figure that out, because the 
flood level now has changed. It is no longer, you know, at the 
level it is. It is probably 10 to 20 feet lower than it was 
before. So wouldn't it make sense to immediately adopt that and 
be open to that, and lower those levels, just based on the fact 
that we now have a new flood level, because we have exposure 
out there?
    General McMahon. Yes, sir. So there are several things to 
consider in what you are suggesting here. And we have tried to 
do a very thorough risk-based analysis on the proposal. And we 
are taking--as we speak, we are evacuating more water than the 
16.3 million acre feet. If the weather cooperates in terms of 
warmer temperatures, which has been to our benefit so far this 
fall, and less than forecasted runoff or precipitation in the 
upper basin, if that trend continues, we will have at least 
200,000 acre feet additional space of storage created in the 
system before the freeze sets in. And that is based on today's 
information. That will change as the cold sets in and as 
precipitation occurs.
    But there are--to evacuate more water would have made the 
repairs that are underway not possible, because----
    Mr. Graves. I understand that.
    General McMahon. Yes, sir. OK.
    Mr. Graves. And we have talked about that, and I understand 
the ability to get back in there and bring the water level down 
too fast. But you can still bring it down more.
    And I might suggest too the weather is not going to 
cooperate. Don't depend on the weather cooperating, because it 
has not going to.
    The bottom line is, though, let me ask you this. What is 
preventing you--and I would certainly hope there will not be 
one single dollar spent this coming year on habitat reclamation 
or on anything--and we go back and forth on the figures, and 
you are always looking for--you keep saying you need money. But 
it would appear to me that if a single dollar is spent on any 
habitat reclamation or restoration or anything, that would be a 
colossal mismanagement of funds, because we have got serious 
priorities out there. And when it comes to getting equipment in 
there and doing this work, I don't think that should happen.
    Now, but let me ask you this. And I know there is other 
issues involved. What is preventing you from using that money 
right now on repairs? I know you are trying to work through 
that, and you said that you are trying to move some dollars 
around. But that ability to navigate is getting less and less 
and less. And I will come back to the second round of 
questions, but you might be able to answer that real quick. 
What is the one thing or two things that are preventing you 
from doing that right this minute, and finding dollars?
    I think you mentioned $86 million in habitat reclamation, 
there was another $13 million in environmental something or 
other. But, you know, what is stopping you from doing----
    General McMahon. Yes, sir. So----
    Mr. Graves [continuing]. It? Right now, internally.
    General McMahon. As you know, we are under continuing 
resolution authority. We don't have an appropriation. So until 
that process unfolds, you know, we are----
    Mr. Graves. I understand that. But you will have the money. 
We will eventually get the money appropriated.
    General McMahon. Yes, sir. And then, of course, as you 
know, Congressman, money is appropriated with a specific 
purpose in mind. We have to go through a process of 
reprogramming or transferring, and notification of Congress, 
and those steps. So that is not a constraint for not doing it, 
but it is part of the process for doing it.
    And so, if and when an appropriation comes, and there are 
opportunities to reprogram funds from recovery program to 
repairs, I suppose we will take advantage of that opportunity.
    Mr. Graves. And you can do that internally. You can do that 
if you jump through all the hoops you just mentioned?
    General McMahon. Well, there are steps that we have to go 
through, ultimately leading to notification of the committees 
that appropriate funds, sir.
    Mr. Graves. All right. And I will come back--I will go 
ahead and yield back at this point.
    General McMahon. Yes, sir.
    Mr. Graves. And I will come back for a second round.
    Mr. Gibbs. OK. We are going to do another round of 
questioning. Hopefully it will go a little quicker.
    General, first question. Talking about the master manual 
and how that inter-relates with your annual operating, and then 
on top of that you talked about the internal and external 
review and how that is going to play in with the 2012 
operating.
    But what I am kind of wondering, you know, how is this--you 
said in your one answer to one of the other questions you 
talked about you might need to open up and revise the master 
manual. Last time that was done it took about 14 years and 
about $35 million, so I don't know if that is a good thing or 
not. What flexibility do you have in the annual operating--for 
example, in Representative King's bill, his proposal is to 
force the Corps to recalculate storage capacities.
    I mean can you do that now, without opening up the master 
manual? I don't know what kind of parameters or restrictions 
you have.
    General McMahon. Mr. Chairman, we do have discretion to 
make short-term--read 1-year--adjustments. And, you know, for 
the right reasons, as, again, it is laid out in law in the 
master manual, ultimately. So, that discretion exists, and we 
are exercising it as we perceive the need to exercise it.
    The annual operating plan, as contrasted with the master 
manual--as we said, the master manual lays out how we balance 
the eight authorized purposes. The annual operating plan is a 
predictive tool that envisions five different scenarios--a 
normal scenario, two scenarios above, and two scenarios below 
normal--that give people who use the river and the water 
resource that the river bears to navigate or to recreate or to 
irrigate or to generate hydropower, and so forth.
    And so, the five scenarios that are presented in the annual 
operating plan give people some predictability. If we have a 
higher-than-normal year up to, say, the 25th upper decile, then 
we can anticipate this level of service for navigation, as an 
example, this level of service for hydropower.
    So, that is the purpose of the annual operating----
    Mr. Gibbs. Now----
    General McMahon [continuing]. To give users some 
predictability.
    Mr. Gibbs. I hate to interrupt you, I just got a quick 
question.
    General McMahon. Yes, sir.
    Mr. Gibbs. Mr. Graves makes, I think, an important point. 
Since levees are damaged and not functioning, and obviously you 
are not going to get them all repaired for next spring and next 
summer, do you have the flexibility, the discretion in the 
operating manual, like he talks about, to actually say the 
flood level now is at this elevation instead of this elevation, 
where it was, because of the damage of the levees? And so you 
could recalculate the storage capacity, as Representative King 
desires to do? Do you have that discretion?
    General McMahon. Yes, sir. We do have that discretion.
    Mr. Gibbs. OK.
    General McMahon. There is consequences to evacuating 
additional water----
    Mr. Gibbs. Well, I understand that.
    General McMahon. Yes, sir.
    Mr. Gibbs. But if flood control is the top priority, I know 
the other things are good too, you have got to balance, and 
that is the challenge----
    General McMahon. Yes, sir.
    Mr. Gibbs [continuing]. And I think that is the history of 
this watershed.
    General McMahon. So I would just like to add that space in 
the upper reservoir system doesn't guarantee that we will 
preclude flooding downstream. And as we saw in 2010 and 
previous years, we had lots of rain below the last reservoir 
that caused a lot of inflow from the tributaries. Now, we held 
water back in the upper reservoir system so that water would 
drain out of the tributaries and out through the main stem. But 
that is an example of one year and the next year vary.
    And so, if we were to create--pick a number--4.6 million 
additional acre feet in the upper system, that wouldn't 
necessarily preclude the flooding that occurred in 2010, as an 
example.
    So, we don't want to create false expectations about 
creating more space as a panacea that will preclude the 
flooding that occurred in 2010, as an example.
    Mr. Gibbs. OK, OK.
    General McMahon. So there is consequences, and we have got 
to think holistically about the whole system.
    Mr. Gibbs. OK. Ms. Kunkel, I want to ask you a question. In 
your testimony you talk about the--stated that Corps of 
Engineers operating mitigation lands--erroneously and 
negatively impact flood control. Do you believe--who is making 
the decisions on these lands you are talking about in your 
county? Is it the Corps? Is it the fish and wildlife services? 
Who is driving that, those policies?
    Ms. Kunkel. Well, the Corps of Engineers owns the ground. 
And some of it is under management of Missouri Department of 
Conservation for the wetland pieces. There--and that is just a 
partnership that the Corps works out through varying States. 
DNR has it in Iowa, MDC has it in Missouri. So that is a normal 
partnership to manage those areas locally.
    But our issue with that is that we have non-Federal levees 
in those areas. So the levees are built to roughly a 25-year 
standard. They are not as wide at the base. They are not as 
tall. They don't have hard anodized roads on top of them that 
help protect them from overtopping, and they are not set back 
away from the channel, primarily. So in those areas where land 
reclamation has been done between the levee and the channel, we 
are seeing a wetland and a pallid sturgeon chute right up next 
to a substructure levee that just doesn't have the ability to 
hold off a high water flow.
    So, as much as our local levee district makes attempts to 
stay up to speed with what is happening in that levee, it is 
not a Pick-Sloan-designed Federal levee. And so it is just set 
up to fail when we have a situation where the water is this 
high, and it is running directly at the levee.
    Mr. Gibbs. Mr. Waters, did you have any comment on that, 
or--OK.
    Mr. Waters. Excuse me. I would just add that we have seen 
areas this year where these mitigation projects have, we feel, 
increased the damage and maybe caused levees to overtop sooner 
than they would have. So I think there is a need to look at 
these mitigation projects, especially where they are right up 
next to the levee, like she is talking about.
    Mr. Gibbs. OK. Mr. Carnahan?
    Mr. Carnahan. Thank you. I want to start with just, for the 
record, to point out--and General, I know you are very aware of 
this, but from fiscal year 2010 to 2011 to 2012, funding 
overall for the Corps has gone down each year. Correct? So I 
just wanted to point that out.
    And secondly, although we authorized $25 million for the 
Missouri River study, only about $7 million of that has been 
provided. And you are really at--you are really stuck right 
now, in terms of being able to complete that. Is that correct?
    General McMahon. Yes, sir.
    Mr. Carnahan. And so, it seems to me the correct way to go 
about this is to--let's finish the study that--it needs to be 
deliberate and thorough. And it needs to consider the best 
science and the most recent data. And in order to complete 
that--just briefly, that study being completed, how useful a 
tool is that going to be, going forward?
    General McMahon. Well, I think the work that has been done 
to date with the $7 million, we have collected data, we have 
engaged with the public to understand, you know, the various 
stakes and stakeholders. We have done some modeling. All that 
work is on the shelf and still legitimately can be applied to 
the successful conclusion of the study.
    Having said that, we might want to step back from the way 
the study was originally conceived and scoped, and recast it in 
the context of the 2011 flooding event, and put an emphasis on 
making this study relevant to making, for example, flood 
control the number one priority. So there is probably some 
adjustment we could and should make to the existing study, the 
way it is scoped, to shape it so that it is more relevant to 
the questions at hand, and gives us the kind of set of 
recommendations that would be useful for consideration by the 
Congress to then subsequently appropriate for.
    Mr. Carnahan. I appreciate that, and I would ask for your 
ideas on ways that that can be better focused and better 
inclusive of this current data, so we ultimately can get that 
study done in the best way possible. So that would be very 
useful.
    Finally, to wrap up my time, let's fast forward a few 
years. Let's pretend that we are all here. And instead of 
having an excess water event, we are here and it is a drought. 
We have had historic drought, OK?
    And we will start with the general and I want to go down 
the line and talk about how we would be having this same 
conversation. And if we make flooding the top priority, then 
how are we incorporating other priorities in different 
situations, which we all know are likely to happen in the 
future. So, General, let's start with you and go down the line 
and talk about how we incorporate a drought scenario into these 
conversations.
    General McMahon. Yes, sir. That is an excellent question. 
And of course, 2007 is when the last drought--just 4 years 
ago--concluded, and we came out of it with successive bountiful 
years of rain. And it is very feasible to imagine that we, in 
the next 5, 10 years or sooner, would be back in a drought 
cycle. So that is exactly the point of going at this with a 
very--I won't say slow, but deliberate pace, to make sure that 
we are thinking broadly, deeply, long-term about all of this, 
and to understand impacts to other seven authorized purposes by 
elevating flood control, as an example.
    There are consequences. Because, as you know, Congressman, 
flood control requires empty space. All the other seven 
authorized purposes require water stored in the system to be 
flowed on a metered pace to serve those purposes. So that 
tension is inherent in this problem set, and needs to be 
addressed as we go forth, very deliberately.
    Mr. Carnahan. Mr. Waters?
    Mr. Waters. Well, I guess my first thought is the 
reservoirs were built for flood control. And that is the way--
that is--should be the primary purpose.
    The other thought is, you know, I don't know what type of 
drought it would take to create the type of damage we have seen 
this year from flooding. I don't know if it is possible that a 
drought could create the kind of damage that we have seen from 
this year's flooding. Certainly the land would be put back into 
production the next year much more quickly.
    So, droughts are devastating, yes. We are in a drought this 
year. We have seen droughts. But they are not as devastating as 
a flood is. And so I think that is the reason to keep flood 
control foremost in mind.
    Mr. Carnahan. Mr. Lawrence?
    Mr. Lawrence. Yes, Congressman. I think there is--you know, 
obviously, there is a lot of different various uses that are 
very important to the different States. In South Dakota, 
obviously, recreation is one of the more important ones, 
because of the amount of tax dollars that are brought in 
through tourism to the State, and that is a very large impact 
to the State of South Dakota.
    There is also another impact, and that is through the 
Western Area Power Administration during a drought. The only 
rate payer on the whole system is the customers that get the 
public power from WAPA. And when we go through droughts, those 
customers have to pay additional amounts of money for their 
power. And they are the lone rate payer on the system. So there 
are impacts to them.
    The one thing I would like to recommend is that--obviously, 
we have had a very impactful event this last year. It is still 
stinging and we are all hurting. I would suggest that we don't 
make a knee-jerk reaction and swing too far the other 
direction, and that we need to have a measured response, as the 
general has recommended, and that we go through some things. 
There may be some interim, you know, medium ground, if you 
will, that we could go to, as far as additional storage, and 
create some additional storage for flooding, but not maybe go--
you know, swing the pendulum completely to the other end, and 
drain the reservoirs just for that purpose.
    So I think there is a happy balance, there is a happy 
medium, and we need to try to approach that cautiously, so that 
we don't swing the pendulum too far to the other direction and 
have, you know, unintended consequences.
    Mr. Carnahan. Great. And Ms. Kunkel?
    Ms. Kunkel. Well, I certainly see the benefits of water 
quality and the ability to irrigate and to be able to have a 
regular control of the reservoir system.
    But I would echo Tom Waters's remarks that in 1944, when 
this system was envisioned, it was intended to control the 
snowmelt and the rain runoff. That was the original purpose of 
the reservoir systems above the dams. And I think we need to 
continue to see that that original vision has worked very well 
until the last change to the master manual. And at the last 
induction of the changes of the master manual we began seeing 
different operational procedures. And at that time we have 
begun seeing successive flooding and problems in the lower 
basin.
    So, in my particular area, I have a very rural population, 
a couple of small towns. The river, even in a drought 
situation, runs usually a couple of feet deep. So it is not 
something that is terribly of concern for me and the 
communities in my county. But I recognize a much larger 
regional and national impact of having those reservoirs too 
low. But I think this is the time we have got to be having an 
open mind and looking at is there ability to have additional 
storage in those lakes, as Congressman King is looking for us 
to do. Thank you.
    Mr. Carnahan. Great. And Mr. Oswald?
    Mr. Oswald. Well, when I was young and full of ginger, I 
worked for our levee district for about 15 years. I was a 
caretaker, and I even took over the responsibility of mowing 75 
miles of levee each year. Part of my job was working with the 
Corps of Engineers on their annual inspection of Atchison 
County Levee District Number One.
    I became quite friendly with one of those Corps 
representatives. He was an artillery officer in World War II 
and he came back home after the war and got his engineering 
degree and then went to work with the Corps of Engineers on the 
Missouri River, stabilizing the channel, building the levees. 
He believed in his mission. And his mission was flood control 
and navigation. And he was happy that recreation was going to 
be a side benefit of those two things.
    So, things have changed. Fewer people live in the country, 
more people live in the city. There is different demand for 
things. But we have to acknowledge that there is climate 
variation, and that variation has to be compensated for in 
those reservoirs and on that river.
    Mr. Carnahan. Great. Thank you all very much.
    Mr. Gibbs. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. Going back to--you 
know, and there is--what we are trying to do is make--I am 
trying to make your job easier, General. If we make flood 
control the number one priority, then that solves a lot of your 
priority issues. And if down the road we have a drought, then 
flood control is obviously not going to be an issue, and it 
doesn't have to be a priority. We are just trying to make sure 
it is the number one priority consideration. And it doesn't 
have to be considered if there is a drought.
    But I want to go back to the exposure that we have right 
now. And I don't expect you to know--you may know what--if the 
levees are all intact, let's say Rulo, or at Brownville, you 
know. Do you know what the difference between if the levees are 
intact--and I imagine Kathy does, she can probably tell me. In 
fact, tell me what--Kathy, we will just go to you, because I 
know that you know. If the levees are intact, what is the flood 
level? And right now what is the flood level with the levees 
open?
    Ms. Kunkel. The Rulo, Nebraska, gauge flood level is 17-
foot at this point in time. At 19-foot the holes are taking on 
water out into my flood plain.
    Mr. Graves. OK. So at 19 foot, water starts running out.
    Ms. Kunkel. Yes, sir.
    Mr. Graves. OK. What were they with the----
    Ms. Kunkel. Were 24 foot----
    Mr. Graves. Twenty-four foot----
    Ms. Kunkel [continuing]. Was the projected level for a 25-
year flood plain----
    Mr. Graves. OK. Is that close? I mean, General, is that--do 
you agree with that? Whatever--what I am trying to get at is 
let's say it is 10 feet or 20 feet. I don't know what it is. 
But right now we have exposure out there, and we are not going 
to be able to fix that. And we keep talking about going slow, 
being deliberate with these decisions, not jumping to 
conclusions, not going too far, don't let Congress do something 
that is going to hamstring us in the future. But what we are 
talking about is this year, right now. We have got people out 
there that are exposed. And the flood level is lower than it is 
going to be, because we are not going to get those repairs 
done.
    Is it in your capacity, the Corps' capacity, can you make 
that determination to go ahead and lower the level, you know, 
in case the weather doesn't cooperate, whatever the case, can 
you go ahead and lower that level in expectation that flooding 
is going to occur much, much quicker because we don't have 
openings? Can you guys do that now, going through--and you talk 
about the process, procedure, notifying the committees, all 
that kind of stuff--can you do that?
    General McMahon. Yes, sir. We have the discretion to do 
that. But time is running out on us, because the river is going 
to freeze in the northern upper reaches. That is going to limit 
the amount of water that can be evacuated from those upper 
reservoirs.
    So, you know, the clock has been ticking on us. And you 
know, we made this call, and we are making adjustments to this 
call back at the end of July. But it was fundamentally premised 
on getting the water off the flood plain so people, farmers, 
businessmen could get back into their homes and start repairs, 
much like the Corps needs to do to the levees.
    And sir, I would add that there is nothing more important 
than getting the levees repaired, whether to a 25-year level of 
protection or all the way up to its full pre-flood--there is 
nothing more important on our priority list than to do that in 
anticipation of the 2012 runoff season. So that is why we are 
moving money around, and we have got contracts in place. And 
you know, we are shoveling dirt out there at L550 and 575.
    There is many more places where we got to get on with it, 
but----
    Mr. Graves. And I am glad. And I know you guys, your number 
one priority is that. I do have a quick comment, though, 
because we keep talking about getting that water off so people 
can get back in their homes and make repairs. I will be honest 
with you. If you had a house in the flood plain right now, 
would you make repairs to it?
    General McMahon. Maybe not. It depends on where it was and, 
you know----
    Mr. Graves. I wouldn't spend the money.
    General McMahon. Yes, sir----
    Mr. Graves. I would continue to live--and we got people----
    General McMahon. Well, I am with you. I mean it----
    Mr. Graves. We got people living in Atchison County with 
relatives and in hotels and whatever they got to do. Now their 
house is open right now, and some of them are back there. But I 
am not so sure I would spend a whole lot of money doing any 
repairs to anything, as long as I had exposure.
    Now, I am encouraged by the fact that you all can do all of 
this internally. I am very concerned about the hamstrings with 
the Endangered Species Act, which is a whole other issue. I 
would hope people would allow for the fact that we have some 
serious issues out there with people, communities, businesses, 
you name it, and we want to be able to take care of that and be 
able to move that money.
    And I am encouraged, too, because--and you said you can do 
that, if you jump through all the hoops you can move that money 
over. And we need to find you some more money, but you can move 
that money over for repair. And so I am going to be looking to 
the Corps, and my constituents are going to be looking to the 
Corps to get some of this stuff done, and back up the fact that 
you are making levee repair that number one issue.
    We all--you know, I am not going to be--I don't expect--it 
is just not--we can't get all the levees repaired. But I would 
expect you all to do everything within your power to lower the 
level of those reservoirs, just as much as you can, within 
reason. And I understand the hydrology and what is going on 
with doing it too fast, also. But we have got to get those 
water levels lowered, because we have got people exposed. And 
that flood level is much lower than it was before.
    And before I finish up, Mr. Chairman, there is one thing I 
do want to clear up. Because we have heard--and I have heard 
this from other people, and I heard this today in the committee 
about the--that the money that is expended on environmental 
issues and endangered species had nothing to do with this, and 
that we shouldn't be attacking other priorities and all.
    And Ms. Kunkel, I want you to explain to me some of the 
things that have been done to the river in regards to shallow 
water habitat, that sort of thing, and what effect that had on 
those levee breaks.
    Ms. Kunkel. All right. From the north end of my county to 
the south there are 52 miles of levee. There are several 
mitigation sites encompassing 8,000 acres. Those areas have 
been purchased. The dikes have been notched that were used 
originally to scour the river channel that kept a deep, 
navigable channel in my area. By notching all of the dikes, it 
allows sand siltation to fill in as sand bars behind the 
notches. It also allows for a lower, slower flow river and 
siltation.
    We know now at the Rulo river gauge we cannot carry the 
volume or the height of water that we were able to in 1993, 
because the river channel has widened just above it in Rush 
Bottoms mitigation area, and it allows the river to spread and 
drop its silt load. So we don't have a good navigable channel, 
and we have a wider, low-flow river that tends to spread itself 
more efficiently.
    We have pallid sturgeon chutes, which is an area where the 
Corps of Engineers contracted to push dirt off into the river 
to create these low-flow channel areas. Those chutes are 
essentially just multi-fingerlets of the original channel that 
allow the water to meander throughout the flood plain area. But 
in many cases, as the water picked up speed and volume, it went 
into those chutes and directed itself directly at the levees, 
creating slides and scour holes on the river side of the 
levees, or eventually causing the entire levee substructure to 
fail. Also created sand boils on the exterior portion.
    Those are the ongoing issues. And some of those areas we 
have 60-foot holes now that encompass over 4 acres. That is the 
equivalent of about 3\1/2\ to 4 football fields. They are 60- 
to 80-foot deep. I have 15 of those in my county. So we are 
going to have to realign the levee at this point. You cannot 
fix that. The levee now has to come back and be put out as a 
realignment away from those areas, rendering those farmers and 
their land that was near those areas completely useless. Does 
that explain your----
    Mr. Graves. Thanks. Mr. Chairman, I don't want to bash this 
issue any more, but I do want to say I look forward to 
continuing to work with the Corps, General, in the future. I 
would encourage you all to be less concerned about your image 
and be a little more responsible with your emails, because that 
really aggravated me when I saw it.
    But thank you, Mr. Chairman. I appreciate the opportunity 
to take part in this.
    Mr. Gibbs. Part of our last representative's question--I 
just got a quick question for the general.
    During a flood event, that takes priority over anything 
else like the Endangered Species Act or anything, and you do 
things. But obviously, not during a flood event--the Endangered 
Species Act, for example, comes into play and could create 
challenges. Is that what I am hearing? Is that correct?
    General McMahon. During a flood event, flood control is 
preeminent, without a doubt. Endangered Species Act and Clean 
Water Act and other--NEPA is another environmental law--are the 
laws of the land. And so, you know, we are compliant with the 
laws of the land.
    And the Missouri River recovery program is a means to an 
end for us to meet our statutory requirements under ESA, Clean 
Water Act, NEPA, to do the right thing in accordance with the 
law of the land. And it allows, then, those eight authorized 
purposes to unfold to the benefit of the people in the basin. 
So it is, again, part of the delicate balance that is the 
Missouri River Basin. And we are not going to get around the 
need to comply with the law.
    Mr. Gibbs. I just wanted to be clear on that.
    General McMahon. Yes, sir.
    Mr. Gibbs. Representative Napolitano.
    Mrs. Napolitano. Yes, General. And on that point, in 
hearing--because I am the ranking member, subcommittee on water 
and power. So we have had many hearings over the issue of 
drought and of the rivers and dams, et cetera.
    And in California we have had many farmers and businesses 
testify. And one of the things that was brought to our 
attention is that many of the farmers in areas that are very 
productive indicate to us that they need to have that 
ecological balance, that they need those estuaries, those 
wetlands to be able to have the filtering of the water that 
they use for farming.
    So, to me--and you are right, this is the law of the land, 
and it also was put there for a purpose. Balancing that is the 
question, and not being too far on either side. And that is 
just a commentary that past experience has taught me.
    General, the impact on the non-Federal levees, how does 
that affect your ability to mitigate your delivery?
    General McMahon. We have an obligation under Public Law 84-
99 to repair non-Federal levees that are in the rehabilitation 
inspection program. And the difference between a non-Federal 
levee and a Federal levee is that non-Federal levee repairs are 
cost-shared with the local sponsor. And that----
    Mrs. Napolitano. Well, what is the cost share percentage?
    General McMahon. I think it is 75 percent Federal and 25 
percent non-Federal--OK, I am sorry, 80/20. I stand corrected. 
Thank you.
    Mrs. Napolitano. 80/20. Yet the taxpayer is also paying for 
those repairs, correct? Who benefits from that? And how are we 
going to do a more equitable balance?
    And I understand some of these areas do not have the 
ability, financially, to meet with these. But let's understand 
that is also the rest of the United States paying for those 
taxes that pay for the repair of those levees, that 80 percent. 
So to me that is something that--I am not sure whether that 
will share in the equation, but certainly it brings to light 
how dependent we are on the funding to be able to mitigate 
everybody's concerns.
    So, while we may be casting aspersions on the Endangered 
Species Act, certainly--and as I tell people, we too are a 
species. When will be our turn?
    So, going on to another question. Mr. Lawrence, is there a 
more appropriate way to communicate with the basin? How can we 
suggest, inform, educate, and reach out to those folks? If they 
were faced with very quick updated analysis that they didn't 
have the time to really reach out, what would be the best way 
to be able to reach out?
    Mr. Lawrence. Thank you for the question, Congresswoman. I 
think that the military already has threat system in place. And 
if you had something similar to that on the Missouri River--in 
other words, threat condition alpha, there is nothing imminent, 
there is nothing that is going to happen in the immediate 
future, we are in good condition, no issues, then you start 
going on down through the different threat conditions, and then 
you come up with one that is going to say this is something 
that is dangerous, something is going to happen, and that would 
be something that everybody could understand fairly easily, it 
works very well in the military, and it is something that I 
think that would work very well----
    Mrs. Napolitano. General?
    Mr. Lawrence [continuing]. Communicate with the public.
    General McMahon. I am familiar with the system. And you 
know, I think with any system, Congresswoman, it depends on how 
much credibility is has with the people that it serves, and how 
widely it is used.
    And so, you know----
    Mrs. Napolitano. So you got an education to do----
    General McMahon. Yes, ma'am.
    Mrs. Napolitano [continuing]. The populace. And 
understanding that Mother Nature is not going to wait for us to 
be ready for anything, she is going to throw things that we--
like Katrina, like some of the fires in California, things 
that--the drought conditions.
    And then, of course, there is WAPA, which I deal with. And 
the fact that if we go into a drought condition there won't be 
enough water to turn the turbines to make the electricity which 
will cause rolling blackouts and non-delivery of electricity to 
farms and other cities. So that is a very, very critical issue 
to me, and one that I will continue to move forward on.
    Ms. Kunkel, what would be--what would have been, in your 
estimation, the impact, had the Corps not been able to do what 
they did in helping?
    Ms. Kunkel. I appreciate the question. And I do want to 
clarify that my county has flooded 4 out of the last 5 years. 
So when I am speaking to you all about flooding conditions and 
the Endangered Species Act roles and the other elements of land 
purchase and mitigation, I am not specifically speaking about 
the Corps' activities in this singular flood event.
    And so, because of that nature, ma'am, we recognize in the 
county that we have got to do better. You know, we have got to 
come to a compromise with the Corps of Engineers, and we have 
got to look at developing a Federal levee system from north to 
south. I only have it in about 18 miles of the county, and 
those levees did not breach. Those Federal levees held. They 
have significant damage, but they did hold.
    And so, we need to look at a cooperative effort locally to 
come together and put my varying small non-Federal levee 
districts together into a larger Federal district, with some of 
the cost share burden on the local people to recognize that 
they have got to pay taxes into that system to maintain it and 
keep it up and keep it moving forward.
    Mrs. Napolitano. Well, I did notice that you were 
testifying that some of the non-Federal levees were not as wide 
or as deep. And so, consequently, they were more prone to 
breaching.
    Ms. Kunkel. Absolutely. And we have seen breaches in May of 
2007, June of 2008. We had an early flood in April of 2009, and 
June and July of 2010, and then May through the fall of this--
--
    Mrs. Napolitano. What would have, in your estimate, been 
the cost had the Army Corps not been able to work as 
effectively as they did?
    Ms. Kunkel. The cost in our county? Well, I know that they 
spent over $3 million maintaining L497 for sand boils. In 
addition, about $4 million maintaining----
    Mrs. Napolitano. No, I am talking total overall cost.
    Ms. Kunkel. Total overall in the county? Those are the two 
levees that we saw the Corps working on this year, so I would 
anticipate about a $7 million impact and loss of those levees, 
had they not have come forward and worked on those.
    Mrs. Napolitano. Thank you. And thank you, again, for being 
here. Thank you, Mr. Chair.
    Mr. Gibbs. I want to thank the panelists for your 
perseverance, being here. I think this has been helpful. I 
think it is always good to have a good communication 
discussion, because we all want to do the right thing and 
protect lives and property. And I commend the work you do.
    And I know that General McMahon has talked about they have 
learned some things too, that everybody has learned from this 
event. And communication is a big part of that. And I think we 
move forward--we can work to make the best policy and help get 
the--get our goals achieved and protect lives and property.
    So, that concludes this hearing. Thank you very much.
    [Whereupon, at 2:02 p.m., the subcommittee was adjourned.]

</pre></body></html>
